<html>
<title> - NEUROBIOLOGICAL RESEARCH AND THE IMPACT OF MEDIA</title>
<body><pre>[Senate Hearing 108-907]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-907

            NEUROBIOLOGICAL RESEARCH AND THE IMPACT OF MEDIA

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                 U.S. GOVERNMENT PRINTING OFFICE
97-532 PDF             WASHINGTON : 2006

_________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



        SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             Subcommittee on Science, Technology, and Space

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK LAUTENBERG, New Jersey



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2003...................................     1
Statement of Senator Brownback...................................     1

                               Witnesses

Anderson, Dr. Daniel R., Professor, Department of Psychology, 
  University of Massachusetts....................................    26
    Prepared statement...........................................    27
Cantor, Joanne, Ph.D., Professor Emerita, University of 
  Wisconsin-Madison..............................................    14
    Prepared statement...........................................    16
Kunkel, Dr. Dale, University of California, Santa Barbara........    10
    Prepared statement...........................................    12
Murray, John P., Ph.D., Professor, Kansas State University.......    29
    Prepared statement...........................................    35
Rich, Michael, M.D., MPH, Director, Center on Media and Child 
  Health, 
  Children's Hospital Boston.....................................     3
    Prepared statement...........................................     7

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared 
  statement......................................................    45

 
            NEUROBIOLOGICAL RESEARCH AND THE IMPACT OF MEDIA

                              ----------                              


                        THURSDAY, APRIL 10, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Good afternoon, we will call the hearing 
to order. It is a pleasure to be here today to discuss an 
important public health issue. We are honored to have a 
distinguished panel of witnesses. I appreciate your presence 
and all of your hard work in this arena over the years.
    We will discuss today the potential impact of the media on 
children's health, and on the opportunity for neuroscience and 
neurobiological research to give us additional tools and 
information as we explore this issue. This is simply a 
conversation about what sort of cultural environment we wish to 
provide for our children and the information we need to provide 
to their parents.
    There is a growing body of hard and verifiable evidence 
that suggests the violent and sexual content of entertainment 
media can be harmful to children's development. Most of the 
studies and reviews by Government and professional health 
organizations showed a relationship stronger than many proven 
associations, such as second-hand smoke and lung cancer, or 
calcium intake and bone density. The studies plainly 
demonstrate links between early exposure to entertainment 
violence and aggressive attitudes and behaviors, increased 
levels of violent crime against others, and desensitization to 
real-life violence.
    Recent studies, such as Professor Murray's brain mapping, 
have only furthered this research with more intriguing 
hypotheses, such as indicating that viewing made-up violence 
affects us physically the same way that viewing real violence 
does, registering in the areas of our brain that store long-
term memories of traumatic events.
    Meanwhile, our children are exposed daily to heavy doses of 
violence through their broad access to media--all at an age 
when their minds and values are being formed and they are 
developmentally incapable of distinguishing fantasy from 
reality.
    Even many adults have problems distinguishing fantasy from 
reality. For example, how many times have adults confused 
television actors and the characters they play? Look at some 
classic shows, like ``Dr. Kildare''. It received thousands of 
letters a week from adults seeking medical advice. That is why 
the famous television ad had to come up with the tag line, 
``I'm not a doctor, but I play one on television.''
    This is a national issue, one that affects all of us. This 
is clearly illustrated by a recently-released University of 
Michigan study that presents some of the most powerful and 
compelling evidence on the subject of television violence. This 
longitudinal study, where the researchers followed the same 
children and tracked the effects years later, discovered that 
exposure to media violence during childhood directly predicts 
young adult aggressive behavior for both males and females. 
This is true even when the effects of socioeconomic status, 
intellectual ability, and a variety of parenting factors are 
controlled. That is a stunning conclusion. In other words, 
contrary to our previous notions, violence does not 
discriminate who it affects, regardless of one's social 
standing, intellectual capabilities, or family conditions.
    Now, think about it. Scientific research is clearly showing 
that watching violence makes people more violent--and not just 
at the time they watch the violence, that is, not just on the 
schoolyard as children, but years later, as adults. Many of us 
are already concerned about our society and our culture today--
what happens when this generation grows up?
    We must understand the powerful public impact of 
entertainment media. It plays a role in every part of our 
lives, affecting us whether we realize it or not. Through 
television, movies, the Internet, and more, the media helps 
shape our attitudes and assumptions--it influences and, in many 
ways, creates our decisions and behavior.
    In this time of war, there is another key point we cannot 
ignore: our entertainment media have a worldwide influence. 
American movies, television shows, music, and video games are 
popular exports. American entertainment is the most pervasive 
and loudest ambassador we have. Unfortunately, its message is 
too often destructive--and incorrect.
    As a member of the Senator Foreign Relations Committee, I 
have seen this far too often--and two researchers in Boston 
recently proved this point clearly. In a Boston University 
survey entitled, ``The Next Generation's Image of Americans,'' 
teenagers from 12 countries responded that they--though only 12 
percent had ever visited America--considered Americans to be 
violent, prone to criminal activity, and sexually immoral. The 
key to their opinions? Their self-confessed exposure to 
American television, movies, and pop music. Watching some of 
the entertainment of today, it is no wonder they have this 
view.
    It is why this hearing is a particular critical event and 
why it is especially important to fund additional research now. 
The best way to determine what impact the popular culture has 
on our attitudes and behavior, what influence our culture 
exerts, is to do what we are doing today--to encourage research 
discussion, to discover new evidence, and possible new 
solutions.
    We must continue to spread the message that the content of 
our media is a serious public health concern. The risks to our 
children, ourselves, our society, and, most important, our 
future are unpredictable and incalculable. Therefore, we must 
continue to analyze, evaluate, study, research, and, 
oftentimes, criticize these products and their effects. These 
actions are not only compatible with a free society and 
liberty, but essential to their very survival.
    We will discuss and have presentations today by researchers 
both in the field of the overall impact of the media on 
children, as well as those doing work in the recent area of 
brain mapping, which looks at what is happening to a child's 
mind when they are entertained with violence.
    We are delighted to have our witnesses here today to 
present on this important topic. In the first panel, we will 
have Dr. Joanne Cantor, a professor, University of Wisconsin, 
Madison; Dr. Dale Kunkel, University of California at Santa 
Barbara, Washington Center, in Washington, D.C.; and Dr. 
Michael Rich, director of the Center on Media and Child Health 
at Harvard University, and the Children's Hospital in Boston.
    Dr. Rich will be introducing the various panel members and 
some of their work to pull it together. So I would like to go 
to you first, Dr. Rich, in this presentation. To make it clear 
to people what we are after, it is to get the scientific basis 
for what a number of us have felt for a long period of time, 
which is that what our children are consuming for entertainment 
is harmful to them when it has levels of violence and sexual 
material that distort their life and what they are doing with 
their lives.
    Dr. Rich, you have appeared before me before in different 
settings. I am always delighted to see you, and I appreciate 
your groundbreaking work. Thanks for being here today.

        STATEMENT OF MICHAEL RICH, M.D., MPH, DIRECTOR, 
               CENTER ON MEDIA AND CHILD HEALTH, 
                   CHILDREN'S HOSPITAL BOSTON

    Dr. Rich. Thank you, Chairman Brownback. And thanks to the 
Committee for the opportunity to testify to you today as a 
pediatrician, as a child health researcher, as a media 
producer, and as a parent.
    My name is Dr. Michael Rich, and I am a doctor, but don't 
play one on TV. I practice pediatrics and adolescent medicine 
at Children's Hospital Boston, and I teach at Harvard Medical 
School and Harvard School of Public Health. I am the director 
and co-founder of the Center on Media and Child Health at 
Harvard University.
    The first of its kind, the Center on Media and Child Health 
is a multidisciplinary collaboration between scientists at 
Harvard Medical School, Harvard School of Public Health, and 
the Harvard Graduate School of Education, as well as colleagues 
around the country, such as those I am speaking with today, to 
work together dedicated to research, education, clinical 
implementation, and media production based on the findings 
about the effects of media on the physical and mental health of 
children and adolescents.
    Finally, and most importantly, I am the father of a 16-
year-old daughter and a 14-year-old son.
    One hundred years ago, the leading causes of illness and 
death in children were infectious diseases and congenital 
anomalies. Physicians tried, often unsuccessfully, to cure 
those afflicted. More successfully, they, along with public 
health workers and other scientists, sought to prevent those 
problems by discovering and intervening on the causes, many of 
which were found to be environmental--poor sanitation, crowded 
housing, and pollution.
    Today, with the hygienic infrastructure, antibiotics, and 
high-technology prenatal care, diarrhea, pneumonia, and birth 
defects are no longer significant causes of morbidity and 
mortality in young people. Now the greatest threats to the 
health and well-being of children and adolescents are the 
outcomes of acquired health-risk behaviors--violence, substance 
use, sexual-risk behaviors, and nutritional problems ranging 
from obesity to eating disorders.
    Surveys that have asked young people where they get their 
information on health, lifestyles, and relationships have 
consistently found that entertainment media are cited as one of 
the leading sources. Just as environmental causes of disease 
and death were discovered and addressed a century ago, we must 
examine the environment in which our children are developing in 
the Information Age to determine the causes of these new 
morbidities.
    The medical community first voiced concern about the 
effects of media on child health in the early 1950s, shortly 
after the introduction of television to the general public. 
Since that time, media technologies have grown exponentially in 
variety, in sophistication, and in the potency of the effects 
on their users. Similarly, the level of concern about and 
research into media effects has grown. It has been estimated 
that there are thousands of research studies conducted by 
scientists of public health, psychology, sociology, and 
communications to investigate whether there is evidence of 
media exposure having an effect on health outcomes.
    In approaching any problem of public health, it is 
important to deal with it systematically so that key 
information is not missed and a complete picture of the disease 
process is established. An epidemiologist attempting to 
determine the causes and possible solutions for an epidemic 
examines the problem through four key aspects of the disease 
process:
    Exposure. What is the nature and magnitude of the exposure 
to the potential causal agent?
    Effects. What is the effect of that agent on the exposed 
individual?
    Mechanism. What is the mechanism by which the causal agent 
affects the individual?
    And intervention. What interventions can cure or prevent 
the negative health outcomes?
    Research to date on the effects of entertainment media on 
the physical and mental health of children has concentrated 
largely on the first two of these areas, exposure and effects. 
Through the years, research has shown increasing exposure to 
television, movies, electronic games, the Internet, and popular 
music.
    A nationwide study in 1999, conducted by Dr. Dale Kunkel, 
among others, found that American children between 8 and 18 
years of age spend 6 hours and 43 minutes of every day exposed 
to media, more time than they spend in school, with parents, 
or, indeed, engaged in any other activity except sleeping. When 
media were used simultaneously--listening to music while 
surfing the Internet, for example--were cumulatively 
calculated, the amount of media exposure rose to 7 hours and 57 
minutes, just under 8 hours a day.
    There is little question that young people's level of media 
exposure provides ample opportunity for the content of those 
media to affect the attitudes, thoughts, and behaviors of young 
people. Since we know that children learn even the simplest 
skills, such as using a spoon, by observation, imitation, and 
adoption of behaviors as their own, what are they learning from 
television, movies, popular music, and electronic games?
    Effects research has taken a variety of approaches, from 
laboratory experiments exposing subjects to various types of 
media and observing their responses, to natural experiments 
where researchers could study people and their behavior before 
and after media were introduced into their environments, to 
correlational studies where large populations were studied for 
media exposure and subsequent health-related behaviors.
    The work of Dr. Joanne Cantor has shown that children are 
frightened and traumatized by images they see on the news and 
in entertainment programming. This fear appears to be 
cumulative and lasting, resulting in what some researchers have 
termed ``the mean-world syndrome'' in which the child perceives 
the world as a dangerous and frightening place, one in which 
only the strong survive.
    In my clinical experience, this plays itself out in sleep 
disturbance, nightmares, anxiety, depression, and even symptoms 
of post-traumatic stress disorder in children as young as four 
or five years.
    Natural laboratories created when discrete populations have 
media introduced for the first time have shown 160 percent 
increases in aggression and 50 percent increases in distorted 
eating behavior after the introduction of media.
    The vast majority of correlational studies done on media 
violence have shown a positive association between exposure to 
media violence and increases in aggressive attitudes, thoughts, 
and behaviors. Children who watched a lot of television when 
they were young have been found to be more aggressive years 
later as adolescents and adults, whether they are male or 
female, and even when such factors as baseline aggressive 
tendencies, socioeconomic status, and a variety of parenting 
factors are controlled for.
    The findings of hundreds of studies analyzed as a whole 
have shown that the association between television exposure and 
aggressive behavior is stronger than that between calcium 
intake and bone mass, lead ingestion and lower IQ, condom non-
use and sexually acquired HIV, or environmental tobacco smoke 
and lung cancer, all associations that clinicians accept as 
fact and on which preventive medicine is based without 
question.
    Despite the preponderance and strength of findings that 
associate media exposure with increased aggression, fears, and 
desensitization to violence, the mechanism by which media 
actually changes those who are exposed remains unclear. Without 
a step-by-step understanding of how viewed violence is 
translated into perceptions, attitudes, and behaviors, the 
media exposure and effects research remains open to criticism.
    Convincing as it is to those of us who make the care and 
concern for children's health our day-to-day business, there 
are well-funded challenges to this research. Just as the 
powerful correlational evidence linking tobacco smoke with lung 
cancer was challenged until researchers were able to 
demonstrate carcinogenic changes on a cellular level in 
response to tobacco exposure, research on the effects of media 
on health must examine the biological basis for behavioral 
change.
    Recent advances in medical technology now allow us to 
examine the human brain at work. Functional magnetic resonance 
imaging, or fMRI, is an advance in neuro-imaging that allows us 
to observe the brain in real time to see what areas of the 
brain are active in response to various stimuli and how those 
responses move from area to area in the brain. In short, we are 
now able to visualize the activity of the brain as it processes 
and stores information. Coupling these images with our ever-
increasing knowledge of brain architecture and function, we can 
construct the pathways by which stimuli are received, 
synthesized into ideas, categorized and stored for future 
reference--in short, how we learn from our environment.
    We are privileged today to have the opportunity to hear 
from two pioneers of the new field of media effects neuro-
imaging, Dr. John Murray and Dr. Dan Anderson. I will leave the 
detailed description of findings of their pilot studies to 
them.
    However it must be noted that this work is not isolated to 
a small group of scientists examining the effects of media. The 
cover story of the February 24, 2003, Newsweek entitled 
``Anxiety and Your Brain: How Living With Fear Affects the Mind 
and Body'' details the high level of concern held by clinicians 
and by the public alike, that we are changed and damaged by the 
stress of war, terrorism, and even our entertainment. It 
describes how anxiety, even among very young children, has 
become the most common chronic illness of modern society, the 
effects of which influence every waking moment and pervade 
virtually every human interaction.
    The response of the human brain to stress, regardless of 
its source, is universal and primitive. To quote briefly from 
the Newsweek article, quote, ``The fear system's command center 
is the amygdala . . . An activated amygdala does not wait 
around for instructions from the conscious mind. Once it 
perceives a threat, it can trigger a body-wide emergency 
response within milliseconds . . . Stress hormones then shut 
down non-emergency services, such as digestion and immunity, 
and direct the body's resources to fighting or fleeing . . . 
creating a state of heightened awareness and supercharging the 
circuitry involved in memory formation.''
    When we entertain ourselves with scary movies or violent 
video games, we are attracted to the heart-pounding super-alert 
excitement that these products stimulate. We are activating the 
very same primitive survival circuits, the fight-or-flight 
pathways in the brain, that allowed our ancestors to survive 
sabertooth tigers. However, we also may be paying a long-term 
price for this excitement by acquiring deep-seated, primitive, 
almost reflexive responses to conflict, responses that may be 
playing themselves out years later in physical and mental 
stress, desensitization to the suffering of others, and 
aggression.
    Since 1972, comprehensive reports from the Surgeon General 
of the United States and the National Institute of Mental 
Health have indicated widespread concern among the public-
health community about the effects of media exposure on our 
physical and mental health. In the year 2000, the major health 
associations in the United States--the American Medical 
Association, the American Academy of Pediatrics, the American 
Psychological Association, and the American Academy of Child 
and Adolescent Psychiatry--issued a consensus statement calling 
media violence a public health emergency, indicating that the 
research evidence pointed, quote, ``overwhelmingly to a causal 
connection between media violence and aggressive behavior in 
some children.''
    Technology and scientific innovations have now given us the 
research tools to examine the mechanism of this causation. As a 
researcher, a teacher, a pediatrician, and a parent, I urge us 
all to support and apply brain-mapping research for the benefit 
of our children and our society. I look forward to what we can 
learn by better understanding how the human brain responds to 
media and by developing interventions to protect us from 
negative media influences, completing the last two areas of 
epidemiological research needed to characterize and respond to 
this public health emergency.
    It was not so long ago that, while the tobacco industry 
criticized and attempted to debunk scientific minutiae of 
various research findings, the medical community and society at 
large recognized the serious health effects associated with 
smoking and began to intervene. Look at how our personal 
attitudes and behaviors, our social environments, and our 
public-health awareness have changed for the better.
    We are at a similar crossroads in relation to media effects 
on health. It is time to be honest with ourselves, to examine 
the scientific evidence with all the tools at our disposal, to 
acknowledge the risks, and to address them in a serious and 
responsible manner. Entertainment media are not inherently 
dangerous. They are a powerful tool that must be used 
thoughtfully and wisely. Just as the same shovel can be used to 
hit someone over the head or to prepare a field for planting, 
so, too, media can harm or help. What we teach our children 
today will determine not only their long-term health and well-
being, but the world that they create for all of us tomorrow. 
It is our task, as parents, as citizens, and as compassionate 
people, to do what we can to teach children the lessons that 
will help them make their world safe, healthy, and free.
    Thank you.
    [The prepared statement of Dr. Rich follows:]

  Prepared Statement of Michael Rich, M.D., MPH, Center on Media and 
                Child Health, Children's Hospital Boston
    Chairman Brownback, Senator Breaux, Members of the Subcommittee on 
Science, Technology and Space, thank you for the opportunity to testify 
before you today as a pediatrician, as a child health researcher, as a 
media producer, and as a parent. My name is Dr. Michael Rich. I 
practice pediatrics and adolescent medicine at Children's Hospital 
Boston and teach at Harvard Medical School and Harvard School of Public 
Health. I am the director and co-founder of the Center on Media and 
Child Health at Harvard University. The first of its kind, the Center 
on Media and Child Health is a multidisciplinary collaboration between 
scientists at Harvard Medical School, Harvard School of Public Health, 
and Harvard Graduate School of Education and colleagues around the 
country that is dedicated to research, education, clinical 
implementation, and media production based on findings about the 
effects of media on the physical and mental health of children and 
adolescents. Finally, and most importantly, I am the father of a 16-
year-old daughter and a 14-year-old son.
The Effects of Media on Child Health
    One hundred years ago, the leading causes of illness and death in 
children were infectious diseases and congenital anomalies. Physicians 
tried, often unsuccessfully, to cure those afflicted. More 
successfully, they, along with public health workers and other 
scientists, sought to prevent these problems by discovering and 
intervening on the causes--many of which were found to be 
environmental--poor sanitation, crowded housing, and pollution. Today, 
with a hygienic infrastructure, antibiotics, and high technology 
prenatal care, diarrhea, pneumonia, and birth defects are no longer 
significant causes of morbidity and mortality in young people. Now the 
greatest threats to the health and well-being of children and 
adolescents are the outcomes of acquired health risk behaviors--
violence, substance use, sexual risk behaviors, and nutritional 
problems from obesity to eating disorders. Surveys that have asked 
young people where they get their information on health, lifestyles, 
and relationships have consistently found that entertainment media are 
cited as one of the leading sources. Just as environmental causes of 
disease and death were discovered and addressed a century ago, we must 
examine the environment in which children are developing in the 
Information Age to determine the causes of the new morbidities.
    The medical community first voiced concern about the effects of 
media on child health in the early 1950s, shortly after the 
introduction of television to the general public. Since that time, 
media technologies have grown exponentially, in variety, in 
sophistication, and in the potency of their effects on users. 
Similarly, the level of concern about and research into media effects 
has grown. It has been estimated that there are thousands of research 
studies conducted by scientists of public health, psychology, 
sociology, and communications to investigate whether there is evidence 
of media exposure having an effect on health outcomes.
    In approaching any problem of public health, it is important to 
deal with it systematically, so that key information is not missed and 
a complete picture of the disease process can be established. An 
epidemiologist attempting to determine the causes and possible 
solutions for an epidemic examines the problem through four key aspects 
of the disease process.

        1) Exposure--What is the nature and magnitude of the exposure 
        to a potential causal agent?

        2) Effects--What is the effect of that agent on the exposed 
        individual?

        3) Mechanism--What is the mechanism by which the causal agent 
        affects the individual?

        4) Intervention--What interventions can cure or prevent the 
        negative health outcome?

    Research to date on the effects of entertainment media on the 
physical and mental health of children has concentrated largely on the 
first two of these areas, exposure and effects. Through the years, 
research has shown increasing exposure to television, movies, 
electronic games, the Internet, and popular music. A nationwide study 
in 1999, conducted by Doctor Dale Kunkel among others, found that 
American children between 8 and 18 years of age spent 6 hours and 43 
minutes of every day exposed to media, more time than they spent in 
school, with parents, or, indeed, engaged in any other activity than 
sleeping. When media used simultaneously, listening to music while 
surfing the internet for example, were cumulatively calculated, the 
amount of media exposure rose to 7 hours and 57 minutes, just under 
eight hours of every day. There is little question that young people's 
level of media exposure provides ample opportunity for the content of 
those media to affect the attitudes, thoughts, and behaviors of young 
people. Since we know that children learn even the simplest skills, 
such as using a spoon, by observation, imitation and adoption of 
behaviors as their own, what are they learning from television, movies, 
popular music, and electronic games?
    Effects research has taken a variety of approaches, from laboratory 
experiments exposing subjects to various types of media and observing 
their responses, to natural experiments where researchers could study 
people and their behavior before and after media were introduced into 
their environments, to correlational studies where large populations 
were studied for media exposure and subsequent health-related 
behaviors. The work of Doctor Joanne Cantor has shown that children are 
frightened and traumatized by images they see on the news and in 
entertainment programming. This fear appears to be cumulative and 
lasting, resulting in what some researchers have termed the ``mean 
world syndrome,'' in which the child perceives the world as a dangerous 
and frightening place, one in which only the strong survive. In my 
clinical experience, this plays itself out in sleep disturbance, 
nightmares, anxiety, depression, and even symptoms of post-traumatic 
stress disorder in children as young as four or five years. Natural 
laboratories created when discrete populations have media introduced 
for the first time have shown 160 percent increases in aggression and 
50 percent increases in disordered eating behavior after the 
introduction of media. The vast majority of the correlational studies 
done on media violence have shown a positive association between 
exposure to media violence and increases in aggressive attitudes, 
thoughts, and behaviors. Children who watched a lot of television when 
they were young have been found to be more aggressive years later as 
adolescents and adults, whether they are male or female, even when such 
factors as baseline aggressive tendencies, socioeconomic status, and a 
variety of parenting factors are controlled for. The findings of 
hundreds of studies, analyzed as a whole, have shown that the 
association between television exposure and aggressive behavior is 
stronger than that of calcium intake and bone mass, lead ingestion and 
lower IQ, condom nonuse and sexually acquired HIV, or environmental 
tobacco smoke and lung cancer--all associations that clinicians accept 
as fact and on which preventive medicine is based without question.
    Despite the preponderance and strength of findings that associate 
media exposure with increased aggression, fears, and desensitization to 
violence, the mechanism by which media actually changes those who are 
exposed remains unclear. Without a step-by-step understanding of how 
viewed violence is translated into perceptions, attitudes, and 
behaviors, the media exposure and effects research remains open to 
criticism. Convincing as it is to those of us who make care and concern 
for children's health our day-to-day business, there are well-funded 
challenges to this research. Just as the powerful correlational 
evidence linking tobacco smoke with lung cancer was challenged until 
researchers were able to demonstrate carcinogenic changes on a cellular 
level in response to tobacco exposure, research on the effects of media 
on health must examine the biological basis for behavioral change. 
Recent advances in medical technology now allow us to examine the human 
brain at work. Functional magnetic resonance imaging, or fMRI, is an 
advance in neuroimaging that allows us to observe the brain in real 
time, to see what areas of the brain are active in response to various 
stimuli and how those responses move from area to area in the brain. In 
short, we are now able to visualize the activity of the brain as it 
processes and stores information. Coupling these images with our ever-
increasing knowledge of brain architecture and function, we can 
construct the pathways by which stimuli are received, synthesized into 
ideas, categorized, and stored for future reference--in short, how we 
learn from our environment.
    We are privileged today to have the opportunity to hear from two 
pioneers of the new field of media effects neuroimaging, Doctor John 
Murray and Doctor Dan Anderson. I will leave the detailed description 
and findings of their pilot studies to them. However, it must be noted 
that this work is not isolated to a small group of scientists examining 
the effects of media. The cover story of the February 24, 2003 Newsweek 
entitled, ``Anxiety and Your Brain: How Living with Fear Affects the 
Mind and the Body,'' details the high level of concern held by 
clinicians and the public alike that we are changed and damaged by the 
stress of war, terrorism, and even our entertainment. It describes how 
anxiety, even among very young children, has become the most common 
chronic illness of modern society, the effects of which influence every 
waking moment and pervade virtually every human interaction. The 
response of the human brain to stress, regardless of its source, is 
universal and primitive. To quote briefly from the Newsweek article, 
``The fear system's command center is the amygdala . . . An activated 
amygdala doesn't wait around for instructions from the conscious mind. 
Once it perceives a threat, it can trigger a body-wide emergency 
response within milliseconds . . . stress hormones then shut down 
nonemergency services such as digestion and immunity, and direct the 
body's resources to fighting or fleeing . . . creating a state of 
heightened alertness and supercharging the circuitry involved in memory 
formation.'' When we entertain ourselves with scary movies or violent 
video games, we are attracted to the heart-pounding, super-alert 
excitement that these products stimulate. We are activating the very 
same primitive survival circuits, the ``fight or flight'' pathways in 
the brain, that allowed our ancestors to survive saber-toothed tigers. 
However, we may also be paying a long-term price for this excitement by 
acquiring deep-seated, primitive, almost-reflexive responses to 
conflict, responses that may be playing themselves out years later in 
physical and mental stress, fears, desensitization to the suffering of 
others, and aggression.
    Since 1972, comprehensive reports from the Surgeon General of the 
United States and the National Institute of Mental Health have 
indicated widespread concern among the public health community about 
the effects of media exposure on our physical and mental health. In the 
year 2000, the major health organizations of the United States, the 
American Medical Association, the American Academy of Pediatrics, the 
American Psychological Association, and the American Academy of Child 
and Adolescent Psychiatry, issued a consensus statement calling media 
violence a public health emergency, indicating that the research 
evidence pointed ``overwhelmingly to a causal connection between media 
violence and aggressive behavior in some children.'' Technology and 
scientific innovations have now given us the research tools to examine 
the mechanism of this causation. As a researcher, teacher, 
pediatrician, and parent, I urge us all to support and apply brain-
mapping research for the benefit of our children and our society. I 
look forward to what we can learn by better understanding how the human 
brain responds to media and by developing interventions to protect us 
from negative media influences, completing the last two areas of 
epidemiological research needed to characterize and respond to this 
public health emergency.
    It was not so long ago that while the tobacco industry criticized 
and attempted to debunk scientific minutiae of various research 
findings, the medical community and society at large recognized the 
serious health risks associated with smoking and began to intervene. 
Look at how our personal attitudes and behaviors, our social 
environments and our public health awareness have changed for the 
better. We are at a similar crossroads in relation to media effects on 
health. It is time to be honest with ourselves, examine the scientific 
evidence with all the tools at our disposal, acknowledge the risks, and 
address them in a serious and responsible manner. Entertainment media 
are not inherently dangerous. They are a powerful tool that must be 
used thoughtfully and wisely. Just as the same shovel can be used to 
hit someone over the head or to prepare a field for planting, so, too, 
media can harm or help. What we teach our children today will determine 
not only their long-term health and well-being, but the world they 
create for all of us tomorrow. It is our task, as parents, as citizens, 
and as compassionate people, to do what we can to teach our children 
the lessons that will help them make their world safe, healthy, and 
free.

    Senator Brownback. That was an excellent statement, Dr. 
Rich. I would note that over the years that you and I have been 
working on this, and you have been in and testified, that each 
step along the way gets clearer and clearer about what is 
taking place here. I am hopeful we can make that message clear, 
as well, across into the industry.
    Dr. Kunkel, thank you very much for joining us today, and I 
look forward to your testimony.

 STATEMENT OF DR. DALE KUNKEL, UNIVERSITY OF CALIFORNIA, SANTA 
                            BARBARA

    Dr. Kunkel. Thank you. Good afternoon, Mr. Chairman.
    With the help of a number of fine colleagues, including 
several who are here with us today, I have conducted extensive 
research on media content and effects over the years 
emphasizing the study of both violence and sex in mainstream 
television programming. In my remarks today, I am going to 
briefly review some key issues in these areas and then offer 
comments about the implications that they hold for the pursuit 
of neurological investigations for the further study of media 
effects.
    First, it is well established by a compelling body of 
scientific evidence that television violence poses a risk of 
harmful effects for children. While exposure to media violence 
is not necessarily the most potent factor that contributes to 
real-world violence and aggression, it may well be the most 
pervasive. Millions of children watch 20 or more hours per week 
of programming that, on average, contains violence, and this 
cumulative exposure to violent images can shape young minds in 
unhealthy ways.
    My particular research interest has emphasized the 
importance of examining differences in the ways in which 
violence is presented on television and the implications that 
such differences hold for the effects of that violent material.
    The most important finding across this entire program of 
research is rather simple. Not all violence is the same, in 
terms of its risk of harmful effects on children. The nature 
and context of the portrayal matters. This idea is best 
conveyed by offering some examples.
    First, consider a violent act that has the following 
features. One, it is committed by a repugnant character who no 
one would wish to emulate. Two, it clearly depicts the harms 
suffered by victims. And, three, it results in clear and strong 
negative consequences for the perpetrator. This type of 
portrayal would actually minimize the risk of most harmful 
effects for children, because it does not glamorize or sanitize 
its depiction of violence.
    In contrast, consider an alternative example. In this 
portrayal, one, violence is committed by an attractive or 
popular character who is a potential role model for children. 
Two, the scene depicts unrealistically mild harm to the victim 
without presenting any pain cues. And, three, the use of 
violence conveys power and status for the perpetrator or 
attracts the approval of others in the program. This example, 
by glamorizing and sanitizing the depiction of violent 
behavior, has a much stronger risk of leading to harmful 
outcomes in child viewers.
    Research conducted by myself and colleagues at UC Santa 
Barbara as part of the National Television Violence Study 
documents an unfortunate trend in the context surrounding most 
violent depictions on TV. Our final report for that project, 
which was based on the analysis of roughly 10,000 programs that 
were sampled across three television seasons, concluded that 
the manner in which most violence is presented on television 
actually enhances, rather than diminishes, its risk of harmful 
effects on children.
    More specifically, we found that most violent portrayals on 
television do not show a realistic degree of harm for victims, 
do not show the pain and suffering realistically associated 
with violent attacks, and do not show the serious long-term 
negative consequences of violence. These patterns were found in 
a large majority of violent portrayals across all channels and 
at all times of day. In contrast, programs that include a 
strong anti-violence theme accounted for less than four percent 
of all shows that contained violent content.
    These data are troubling, but they are not new. I mention 
them here today for two purposes. First, they serve to 
underscore that the way in which most violence is depicted on 
television does, indeed, pose a serious risk of harm for our 
children. But, second, and speaking more directly now to the 
focus of today's hearing, these data provide a potential avenue 
for exploration by researchers examining the neurological 
activity that occurs when humans view televised violence.
    Given the knowledge we already possess about the varying 
risks of harm associated with different types of violent 
depictions, it seems clear that neurobiological researchers 
will need to employ many different types of violent stimuli as 
part of their experimental work. We cannot assume that the way 
the mind reacts to one type of violent portrayal will be the 
same as for all types of violent depictions. Indeed, given our 
current state of knowledge, there is substantial reason to 
expect that would not be the case.
    This underscores the need for a substantial program of 
research to adequately explore the full range of differences in 
the depictions of violent behavior. I am testifying ahead of 
Dr. Murray, but when he presents his perspective on this issue 
in his existing studies, you will see that he is already saying 
that we need to go to different types of subjects. My point is 
that we need to go to different types of portrayals of violence 
to understand the way in which the mind is making sense of 
violent portrayals.
    Finally, I should note that Dr. Murray's initial brain-
mapping research suggests that cortical arousal is an important 
aspect of how the mind reacts to violent images. This is 
important, because heightened arousal levels are associated 
with a heightened probability of behavioral effects from media 
exposure.
    It will be interesting to learn the extent to which 
sexually-related material on TV may also stimulate cortical 
arousal. Should that be the case, then we would also have 
reason to expect an increased probability of exposure effects 
in that realm of media content, as well.
    In sum, we know a great deal about the effects of media, 
but we still have much to learn. I encourage this Committee to 
take every step possible to support research that will further 
our knowledge about how the mind is influenced by media 
portrayals.
    Children today spend more time with media than they do in 
the classroom, yet the number of Federal dollars devoted to 
educational research literally dwarfs that which is invested in 
any media-effects investigation. The stakes are too high for us 
to miss any opportunity to better understand the impact of 
media on children.
    Thank you very much for your time and your attention to 
this important issue.
    [The prepared statement of Dr. Kunkel follows:]

   Prepared Statement of Dr. Dale Kunkel, University of California, 
                             Santa Barbara
    Thank you for the opportunity to testify today on the prospects for 
new and important research knowledge about media effects that may be 
derived from the use of neurological investigations, or so-called 
``brain mapping'' technology. I have conducted extensive research on 
media content and effects over the past 20 years, emphasizing the study 
of violent and sexually-related images found in mainstream television 
programming. More specifically, I served as a senior researcher from 
1994-1998 on the National Television Violence Study, one of the largest 
media research projects to date--and I have also conducted an ongoing 
series of content analysis investigations entitled ``Sex on TV'' 
sponsored by the Henry J. Kaiser Family Foundation over the past six 
years. Each of these topic areas have important linkages to the new 
research approach being pioneered by Dr. Murray, and I would like to 
comment on those linkages after first providing some background 
regarding the existing state of media violence research.
Media Violence: The Importance of Context
    Concern on the part of the public and Congress about the harmful 
influence of media violence and other sensitive material on children 
dates back to the 1950s and 1960s. The legitimacy of that concern is 
corroborated by extensive scientific research that has accumulated 
since that time. Indeed, in reviewing the totality of empirical 
evidence regarding the impact of media violence, the conclusion that 
exposure to violent portrayals poses a risk of harmful effects on 
children has been reached by the U.S. Surgeon General, the National 
Institutes of Mental Health, the National Academy of Sciences, the 
American Medical Association, the American Psychological Association, 
the American Academy of Pediatrics, and a host of other scientific and 
public health agencies and organizations.
    In sum, it is well established by a compelling body of scientific 
evidence that television violence poses a risk of harmful effects for 
child-viewers. While exposure to media violence is not necessarily the 
most potent factor contributing to real world violence and aggression 
in the United States today, it is certainly the most pervasive. 
Millions of children spend an average of 20 or more hours per week 
watching television, and this cumulative exposure to violent images can 
shape young minds in unhealthy ways.
    Much of my research has emphasized the importance of examining 
differences in the ways in which violence is presented on television, 
and the implications such differences hold for the effects that result 
from viewing violent material. Simply put, not all violence is the same 
in terms of its risk of harmful effects on child-viewers. The nature 
and context of the portrayal matters. For example, consider a violent 
act that has the following features:

        --it is committed by a repugnant character who no one would 
        wish to emulate;

        --it clearly depicts the harms suffered by victims;

        --and it results in strong negative consequences for the 
        perpetrator.

    This would be the type of portrayal that would actually minimize 
the risk of most harmful effects for viewers, because it does not 
glamorize or sanitize its depiction of violence. In contrast, consider 
another type of violent portrayal;

        --one that is committed by an attractive or popular character 
        who is a potential role model for children;

        --that depicts unrealistically mild harm to the victim who is 
        attacked,

        --and that conveys power and status for the perpetrator or 
        attracts the approval of others in the program.

    This type of portrayal, by glamorizing and sanitizing the depiction 
of violent behavior, has a much stronger risk of leading to harmful 
outcomes in the viewer.
    Research conducted by myself and colleagues at UC Santa Barbara as 
part of the National Television Violence Study documents an unfortunate 
trend in the context surrounding most violent depictions on TV. Our 
final report, which was based on the analysis of approximately 10,000 
programs across three television seasons, concluded that the manner in 
which most violence is presented on television actually enhances rather 
than diminishes its risk of harmful effects on child-viewers. That is, 
the most common pattern associated with violent portrayals on TV 
involved contextual features such as:

        --not showing a realistic degree of harm for victims;

        --not showing the pain and suffering realistically associated 
        with violence attacks;

        --and not showing the serious long-term negative consequences 
        of violence.

    These patterns were present in the large majority of violent 
portrayals across all channels, and at all times of day. In contrast, 
programs that included a strong anti-violence theme accounted for less 
than 4 percent of all shows containing violent content.
Implications of the Findings
    These data are troubling, though they are not new. I mention them 
here today for two purposes. First, they serve to underscore that the 
way in which most violence is depicted on television poses a serious 
risk of harm for children. It does not have to be that way. Independent 
of whether or not violence on television might be reduced in quantity, 
it could certainly be presented in more responsible fashion, thereby 
diminishing its risk to child viewers. This is an avenue for addressing 
the concern about media violence that, in my view, has not yet been 
adequately explored.
    But second, and now speaking more directly to the focus of today's 
hearing, these data provide a potentially fruitful avenue for further 
exploration by researchers who examine the neurological activity that 
occurs when humans view televised violence. In a moment, Dr. Murray 
will review his brain mapping research, which holds strong promise for 
furthering our understanding of how the mind makes sense of violent 
images on the screen. Given the evidence we already possess about the 
varying risk of harms associated with differing types of violent 
portrayals, it seems clear that it will be important for 
neurobiological researchers to employ many different types of violent 
stimuli as part of their experimental work. We cannot assume that the 
way the mind reacts to one type of violent portrayal will be the same 
for all types of violent depictions; indeed, given our current state of 
knowledge, there is strong reason to expect that it will not. This 
factor underscores the need for a substantial program of research to 
adequately explore the full range of differences in the depictions of 
violent behavior.
    Finally, I should note that Dr. Murray's initial brain-mapping 
research suggests that cortical arousal is an important aspect of how 
the mind reacts to violent images, which is important because 
heightened arousal levels are associated with a heightened probability 
of behavioral effects from media exposure. It will also be important to 
learn the extent to which sexually-related material on television may 
stimulate cortical arousal. Should that be the case, these findings 
would also hold similar implications for an increased probability of 
exposure effects in this realm.
    In sum, we know a great deal about the effects of media, but we 
still have much to learn. I encourage this Committee to take every step 
possible to support research in this area that will further our 
knowledge about how the mind is influenced by media portrayals.
    Children spend more time with media than they do in the classroom, 
yet I the number of federal dollars spent on educational research today 
literally dwarfs that which is devoted to media effects investigations. 
The stakes are too high for us to miss any opportunity to better 
understand the impact of media on children. Thank you for your time and 
for your attention to this important issue.

    Senator Brownback. Thank you, Dr. Kunkel. That last point 
was an excellent one. People spend so much time with 
entertainment, and yet we spend very few dollars on researching 
its actual impact, and we do millions, if not billions of 
dollars worth of research on educational impact. It is an 
excellent point.
    Dr. Kunkel. That is important, too, but we cannot forget 
about this area.
    Senator Brownback. Agreed.
    Dr. Cantor, thank you for joining us today.

     STATEMENT OF JOANNE CANTOR, Ph.D., PROFESSOR EMERITA, 
                UNIVERSITY OF WISCONSIN-MADISON

    Dr. Cantor. Thank you. Mr. Chairman, thank you for inviting 
me to present my views on the media's impact on children.
    Since 1974, I have been a professor at the University of 
Wisconsin focusing the greater part of my research on the 
impact of media violence on children's aggressive behaviors and 
emotional health. My book, ``Mommy, I'm Scared: How TV and 
Movies Frighten Children and What We Can Do to Protect Them,'' 
helps parents shield their children from the effects of media 
violence. Finally, and not the least important in terms of 
expertise, I am the mother of a 14-year-old son.
    We know a lot about the effects of media violence. Study 
after study has found that children often behave more violently 
after watching media violence. The violence they engage in 
ranges from trivial aggressive play to injurious behavior with 
serious medical consequences. Children also show higher levels 
of hostility after viewing violence. And the effects of this 
hostility range from being in a nasty mood to an increased 
tendency to interpret a neutral comment or action as an attack. 
In addition, children can be desensitized by media violence, 
becoming less distressed by real violence and less sympathetic 
with victims. Finally, media violence makes children fearful, 
and these effects range from a general sense that the world is 
dangerous to full-blown anxieties, nightmares, sleep 
disturbances, or other trauma symptoms.
    Even more alarming, research confirms that these effects 
are long-lasting. You talked about a study from the University 
of Michigan which showed that viewing violence between the ages 
of 6 and 10 predicts antisocial behavior as a young adult. 
Another aspect of that study showed that those who were heavy 
viewers when they were young were twice as likely as the others 
to engage in spousal abuse when they became adults. And, as you 
said, this analysis controlled for many of the other factors 
that we know also lead to antisocial behavior.
    The long-term effects of media on fears and anxieties are 
also striking. Research shows that intensely violent images 
often induce anxieties that linger, interfering with sleeping 
and waking activities for years. Many young adults report that 
frightening media images that they saw as children have 
remained on their minds in spite of their repeated attempts to 
get rid of them. They also report feeling intense anxieties in 
non-threatening situations as a result of having been scared by 
a movie or television program, even though they now know that 
there is nothing to fear. As an example, you might find it 
logical that many people who have seen the movie ``Jaws'' worry 
about encountering a shark whenever they swim in the ocean. But 
you would be surprised to learn how many of these people are 
also still uncomfortable about swimming in lakes or pools 
because of the enduring emotional memory of the terror they 
experienced viewing this movie as a child.
    Senator Brownback. That is where that comes from.
    [Laughter.]
    Dr. Cantor. These long-term reactions of increased 
aggressiveness and lingering fear raise important questions 
about the processes involved in these media effects. The fact 
that a child might imitate a wrestling move he has just seen on 
TV is not that surprising. Nor is it difficult to explain why a 
youngster might have a nightmare the night after watching 
``Psycho'' or ``Poltergeist'' or ``Scream.'' But the fact that 
the negative effects of media violence are so enduring 
indicates that we need to explore these processes more deeply. 
We need to know what is happening to children's brains as they 
watch media violence and what kind of lasting changes occur.
    Some encouraging findings are beginning to emerge from 
research teams headed by John Murray at Kansas State University 
and also by Vincent Matthews at Indiana University Medical 
School, with funding from the Center for Successful Parenting. 
By mapping the areas of the brain that are influenced by 
violent images, these studies promise to help us understand how 
media violence promotes aggression and to help explain why it 
has such enduring effects on emotional memory.
    What can Government do about the problem of media violence? 
Well, you have already helped by mandating the V-chip and 
providing TV ratings. This is an enormous first step. However, 
there is evidence that the ratings need improvement, and 
certainly the publicity for the ratings needs to be improved.
    Also, Congress has conducted hearings into the media 
industries' aggressive marketing of violence to children. This 
has led to some improvements. But, again, Congress needs to 
keep tabs on this, because it is so very important.
    Congressional hearings have also had a positive effect by 
keeping the issue of media violence in the news and helping 
educate parents about the risks of media violence. Anything 
more that can be done to educate parents would certainly 
provide enormous benefits.
    And, finally, Congress can provide funding for more 
research on this topic, especially research on the neurobiology 
of brain reactions and on the relationship between media 
violence exposure and children's mental and physical health.
    We must not lose sight of the stakes here. A great deal has 
changed in the past generation or two. Our children are 
spending much more time with media than we did, and what they 
are exposed to is more violent, more graphic, and now, with 
video and computer games, more interactive than we ever 
imagined. Our children's heavy immersion in today's media 
culture is a large-scale societal experiment with potentially 
horrifying results. And, unfortunately, with hardly a child 
left behind to serve in the control condition.
    The time is now to put serious resources into understanding 
what we are doing to our children and into finding ways to 
ensure their welfare and that of society as a whole. I have 
talked about these ideas in more detail, and I have put a lot 
of information on my Web site, which is www.joannecantor.com, 
which anybody can access, because I think it is so important to 
get this message out. The media are not going to help us very 
much in getting these messages out, so the Internet can have a 
very positive effect in informing parents and other people.
    I will be happy to answer any of your questions, but I 
would like to thank you again for your sincere and continuing 
interest in this matter.
    [The prepared statement of Dr. Cantor follows:]

    Prepared Statement of Joanne Cantor, Ph.D., Professor Emerita, 
                    University of Wisconsin-Madison
    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to present my views on the media's impact on children. 
Since 1974, I have been a professor at the University of Wisconsin, 
focusing the greater part of my research on the impact of media 
violence on children's aggressive behaviors and emotional health. My 
book, ``Mommy I'm Scared'': How TV and Movies Frighten Children and 
What We Can Do to Protect Them, helps parents protect their children 
from the effects of media violence. Finally, and not the least 
important in terms of expertise, I am the mother of a fourteen-year-old 
son.
    We now know a lot about the effects of media violence. Study after 
study has found that children often behave more violently after 
watching media violence. The violence they engage in ranges from 
trivial aggressive play to injurious behavior with serious medical 
consequences. Children also show higher levels of hostility after 
viewing violence, and the effects of this hostility range from being in 
a nasty mood to an increased tendency to interpret a neutral comment or 
action as an attack. In addition, children can be desensitized by media 
violence, becoming less distressed by real violence and less likely to 
sympathize with victims. Finally, media violence makes children 
fearful, and these effects range from a general sense that the world is 
dangerous, to full-blown anxieties, nightmares, sleep disturbances, and 
other trauma symptoms.
    The evidence about these effects of media violence has accumulated 
over the last few decades. Meta-analyses, which statistically combine 
all the findings in a particular area, demonstrate that there is a 
consensus on the negative effects of media violence. They also show 
that the effects are strong--stronger than the well-known relationship 
between children's exposure to lead and low I.Q. scores, for example. 
These effects cannot be ignored as inconclusive or inconsequential.
    Even more alarming, recent research confirms that these effects are 
long lasting. A study from the University of Michigan shows that TV 
viewing between the ages of 6 and 10 predicts antisocial behavior as a 
young adult. In this study, both males and females who were heavy TV-
violence viewers as children were significantly more likely to engage 
in serious physical aggression and criminal behavior later in life; in 
addition, the heavy violence viewers were twice as likely as the others 
to engage in spousal abuse when they became adults. This analysis 
controlled for other potential contributors to antisocial behavior, 
including socioeconomic status and parenting practices.
    The long-term effects of media on fears and anxieties are also 
striking. Research shows that intensely violent images often induce 
anxieties that linger, interfering with both sleeping and waking 
activities for years. Many young adults report that frightening media 
images that they saw as children have remained on their minds in spite 
of their repeated attempts to get rid of them. They also report feeling 
intense anxieties in nonthreatening situations as a result of having 
been scared by a movie or television program--even though they now know 
that there is nothing to fear. [For example, you might find it logical 
that many people who have seen the movie Jaws worry about encountering 
a shark whenever they swim in the ocean. But you would be surprised to 
learn how many of these people are still uncomfortable swimming in 
lakes or pools because of the enduring emotional memory of the terror 
they experienced viewing this movie as a child.]
    These long-term reactions of increased aggressiveness and lingering 
fear raise important questions about the processes involved in media 
effects. The fact that a child might imitate a wrestling move he has 
just seen on TV is not that surprising. Nor is it difficult to explain 
why a youngster might have a nightmare after watching Psycho or 
Poltergeist or Scream. But the fact that the negative effects of media 
violence are so enduring indicates that we need to explore these 
processes more deeply. We need to know what's happening to children's 
brains as they watch media violence and what kinds of lasting changes 
occur.
    Some encouraging findings are beginning to emerge from research 
teams headed by Vincent Matthews at Indiana University Medical School 
and by John Murray at Kansas State University. By mapping the areas of 
the brain that are influenced by violent images, these studies promise 
to help us understand how media violence promotes aggression and to 
help explain why they have such enduring effects on emotional memory.

    What can government do about the problem of media violence?

    Congress has already provided help by mandating the V-chip and TV 
ratings so that parents can have some idea of what's in a program 
before their child watches it. This is an enormous first step, but 
currently each mass medium--TV, movies, music, and video games--has its 
own distinct rating system. Parents need better information, and they 
would certainly benefit from having one easily understood rating system 
that would apply to all media.
    Congress has already conducted hearings regarding the media 
industries' aggressive marketing of violent programming to children. 
These hearings have resulted in many promises on the part of industry 
executives and some movement in the direction of curbing these 
excesses. But Congress should continue to keep tabs on these 
activities.
    Congressional hearings have also had a positive effect by keeping 
the issue of media violence in the news and helping to educate parents 
about the potential risks of media to their children. Anything else the 
government can do to help educate parents on this matter would provide 
enormous benefits.
    What Congress can do in addition is provide funding for more 
research on this topic--especially research on the neurobiology of 
brain reactions and on the relationship between media violence exposure 
and children's mental and physical health.
    We must not lose sight of the stakes here. A great deal has changed 
in the past generation or two. Our children are spending much more time 
with media than we did, and what they are exposed to is much more 
violent, more graphic, and now, with video games and computers, more 
interactive than we ever imagined. Our children's heavy immersion in 
today's media culture is a large-scale societal experiment with 
potentially horrifying results (and with hardly a child left behind to 
serve in the control condition). The time is now to put serious 
resources into understanding what we are doing to our children and into 
finding ways to ensure their welfare and that of society as a whole.
    You can find these ideas and arguments in more detail on my web 
site www.joannecantor.com. Of course, I will be happy to answer your 
questions. Thank you again for your sincere and continuing interest in 
this matter.
Related References
        Anderson, C. A., & Bushman, B. J. (2001). Effects of violent 
        video games on aggressive behavior, aggressive cognition, 
        aggressive affect, physiological arousal, and prosocial 
        behavior: A meta-analytic review of the scientific literature. 
        Psychological Science, 12, 353-359.

        Black, S. L., & Bevan, S. (1992). At the movies with Buss and 
        Durkee: A natural experiment on film violence. Aggressive 
        Behavior, 18, 37-45.

        Bushman, B. J., & Anderson, C. A. (2001). Media violence and 
        the American public: Scientific facts versus media 
        misinformation. American Psychologist, 56, 477-489.

        Cantor, J. (2003, May). ``I'll never have a clown in my 
        house'': Frightening movies and enduring emotional memory. 
        Paper accepted for presentation at the Annual Conference of the 
        International Communication Association. San Diego.

        Cantor, J. (1998). ``Mommy, I'm scared'': How TV and movies 
        frighten children and what we can do to protect them. San 
        Diego, CA: Harcourt.

        Cantor, J. (2002). Fright reactions to mass media. In J. Bryant 
        & D. Zillmann (Eds.), Media effects: Advances in theory and 
        research (2d ed., pp. 287-306). Mahwah, NJ: Erlbaum.

        Cantor, J. (2002). Whose freedom of speech is it anyway? 
        Remarks at Madison (WI) Civics Club, October 12, 2002. http://
        joannecantor.com/Whosefreedom.html

        Center for Successful Parenting (2003). Can violent media 
        affect reasoning and logical thinking? http://
        www.sosparents.org/Brain%20Study.htm

        Harrison, K., & Cantor, J. (1999). Tales from the screen: 
        Enduring fright reactions to scary media. Media Psychology, 1 
        (2), 97-116.

        Huesmann, L. R., Moise-Titus, J., Podolski, C., & Eron, L. 
        (2003). Longitudinal relations between children's exposure to 
        TV violence and their aggressive and violent behavior in young 
        adulthood: 1977-1992. Developmental Psychology, 39, 201-221.

        Johnson, J. G., Cohen, P., Smailes, E. M., Kasen, S., & Brook, 
        J. S. (2002). Television viewing and aggressive behavior during 
        adolescence and adulthood. Science, 295, 2468-2471.

        Kirsh, S. J. (1998). Seeing the world through Mortal Kombat-
        colored glasses: Violent video games and the development of a 
        short-term hostile attribution bias. Childhood, 5 (2), 177-184.

        Lemish, D. (1997). The school as a wrestling arena: The 
        modeling of a television series. Communication, 22 (4), 395-
        418.

        [Matthews, V. P.] (2002). Violent video games trigger unusual 
        brain activity in aggressive adolescents. http://jol.rsna.org/
        pr/target.cfm?ID=94

        Murray, J. P. (2001). TV violence and brainmapping in children. 
        Psychiatric Times, XVIII (10).

        Owens, J., Maxim, R., McGuinn, M., Nobile, C., Msall, M., & 
        Alario, A. (1999). Television-viewing habits and sleep 
        disturbance in school children. Pediatrics, 104 (3), 552, e 27.

        Paik, H., & Comstock, G. (1994). The effects of television 
        violence on antisocial behavior: a meta-analysis. Communication 
        Research, 21, 516-546.

        Simons, D., & Silveira, W. R. (1994). Post-traumatic stress 
        disorder in children after television programmes. British 
        Medical Journal, 308, 389-390.

        Singer, M. I., Slovak, K., Frierson, T., & York, P. (1998). 
        Viewing preferences, symptoms of psychological trauma, and 
        violent behaviors among children who watch television. Journal 
        of the American Academy of Child and Adolescent Psychiatry, 37 
        (10), 1041-1048.

        Twenge, J. M. (2000). The age of anxiety? Birth cohort change 
        in anxiety and neuroticism, 1952-1993. Journal of Personality 
        and Social Psychology, 79, 1007-1021.

        Zillmann, D., & Weaver, J. B. III (1999). Effects of prolonged 
        exposure to gratuitous media violence on provoked and 
        unprovoked hostile behavior. Journal of Applied Social 
        Psychology, 29, 145-165.

    Senator Brownback. Thank you.
    The Congress has had an interest in this issue for a long 
period of time, and we have had hearings that go back to a 
colleague from Illinois, Senator Simon, who held hearings on 
this for a number of years. In fact, I saw him at Paul 
Wellstone's funeral and we talked about this topic. It has been 
an area of focus for some period of time, much like the tobacco 
health issue. It was a subject of focus for years, and people 
would get up in the morning coughing, and they knew something 
was not quite right, but we did not have the ``smoking gun.'' 
But that is what we are, hopefully, moving towards here on this 
issue.
    Let me ask, anybody on the panel that would want to refer 
to this: there has been a great deal of frustration about not 
just the level of violent and sexual material over the years--
and we have heard this repeatedly--but also the escalation of 
the violent and sexual material in movies or other 
entertainment venues, and now there is even the crossing of 
violence and sexual materials so that you have violent sexual 
content that is very pernicious. With this new brain-mapping 
type of work, can you speculate as to why the entertainment 
industry is so dependent upon violent and sexual material? Is 
it because they have to hit certain arousal spots in the brain 
to keep you watching, and you have to get a heavier and heavier 
dose to keep you interested?
    Dr. Kunkel. I think the question may be better directed to 
the second panel, where we have the people who are actually 
doing that work. But I would venture one comment, and that is, 
a close colleague of mine, Dr. Edward Donnerstein, is one of 
the leading researchers who has looked at exactly the nexus you 
are referencing here, the combination of sex and violence. It 
turns out that that type of portrayal has the most powerful 
risk of effects, because each of them brings some potential for 
arousal. And we have known this before we have had brain-
mapping technology through----
    Senator Brownback. In different areas of the brain.
    Dr. Kunkel.--other measures. Yes. And so once you have an 
arousal state, it creates, in humans, a greater readiness to 
respond, and you will then have a greater readiness to respond 
to whatever input you are receiving at that time. And so it 
will be very interesting, as I suggested, it could be quite 
fruitful to look at sexual material as well as violent material 
through this brain-mapping technology. Of course, one would not 
do it with young children, but it would be very interesting to 
look at content that includes both aspects, both elements of 
content to see what are the variations in the way the brain 
responds.
    Michael, did you want to comment further?
    Dr. Rich. Yes, I had two comments, one being based on the 
research and one clinical. There is a small body of research 
that has looked at this nexus between sexual and violent 
material, and other pleasurable material combined with that 
violent material, and it finds that this violent material is 
the most potent because it is associating pleasure with 
violence. So that if you are making people laugh or you are 
sexually arousing them at the same time as violence is 
portrayed, those two feelings get meshed together and get 
cemented into the long-term memory as a mixed feeling of 
pleasure with causing pain.
    Secondly, on a clinical level, I see with the increasing 
amount of sexual violence portrayed, increasing amount of 
sexual violence in the children that I take care of, the 
adolescents. I am hearing more about dating violence. I am 
hearing more about date rape. I am hearing more about coercive 
sexual activity, the threat of violence or the threat of some 
sort of physical harm related to violence. So this is purely 
empirical evidence, not as a result of research. But as a 
clinician, this concerns me, because I think that when we 
portray that it is normal or that it is okay for someone to 
demand sex ``or else,'' we are teaching them that. And just as 
they learn to use the spoon, they will learn to do this in 
their lives as well.
    Senator Brownback. Dr. Cantor?
    Dr. Cantor. And to your question about why the industry is 
going so often into these two directions----
    Senator Brownback. Yes.
    Dr. Cantor.--there is quite a bit of evidence of 
desensitization, so that if you have one murder in ``Terminator 
I'', you have to have ten in ``Terminator II'' to get the same 
level of emotional reaction. And I am sure that brain mapping 
will reaffirm this. So we are desensitizing kids so that, to 
get the same sort of ``buzz'' or thrill, they have to go up 
another notch. And so that is one reason why they are going in 
that direction, I believe.
    Also, I study long-term memories that adults have of 
exposure to something really disturbing when they were a child. 
I recently published a study on memories of stumbling into 
something sexual on television. And there are a subset of kids 
who stumbled into sexual violence on television as a child who 
keep that memory and are very troubled by both what might be 
considered normal sexual activities and violent activities 
because those memories of sexual violence are so indelible in 
these kids' minds. So it is very important to make sure parents 
understand the consequences of unlimited exposure to television 
by their kids.
    Senator Brownback. How old are those memories that you are 
dealing with?
    Dr. Cantor. Well, they could be from age 5, from age 10. 
And these are young adults talking about these vivid memories 
of something that they saw that long ago.
    Senator Brownback. So it got burned into the brain.
    Dr. Cantor. It got burned in there indelibly, and they can 
write about it in great detail. And if they talk about it out 
loud, you can hear in their voice that the emotion is 
returning. So these are not things that go away.
    Senator Brownback. Do we know what has gone on in the brain 
to burn that into the brain that hard?
    Dr. Cantor. Well, I think maybe you should ask the next 
panel----
    Senator Brownback. All right.
    Dr. Cantor.--but I think that is one of the things that 
they are going for in this research.
    Senator Brownback. Dr. Kunkel, do we know for certain--
because you do a lot of studies of what is being put out in the 
entertainment industry--do we know for certain that the level, 
the type of violence, the type of sexual material has ratcheted 
up in quantity and quality over the past, say, 20 years?
    Dr. Kunkel. I want to address your question at more than 
just a straightforward level, because for so long people have 
asked the question, ``Is there more violence on television than 
there used to be?'' And that is not the right question to ask. 
And I think you are headed in the direction of the questions 
that we need to get to. If you are going to ask is there more 
violence on television, you have got to count things, and you 
have got to say, well, this is an act, and so what is an 
average number of acts per hour or per program. And so you 
could make comparisons over time, but that equates all acts of 
violence as being the same. And the whole key to the base of 
evidence that we have from the content studies is that that is 
not the case. We are linking the content research to 
experimental lab studies that show variation in how children 
respond to these portrayals. And what we find, that I think is 
the key answer to your question here, is that we know there are 
certain contextual features that enhance the risk of harmful 
effects. We analyze the violence on television for the presence 
or absence of those. And what we find is that all of the 
contextual features that are most common in the portrayals of 
violence on mainstream television are those that heighten the 
risk.
    Now, this is interesting, because it suggests that there 
are several ways in which the media, if it were going to be 
more socially responsible to address this concern, could 
proceed. One, and the obvious one that people have known for a 
long time, is you could simply reduce the amount of violence on 
television. But I have been to discussions with the industry, 
and they often say, ``Violence is an integral part of life. We 
cannot take it away from all drama. It would be silly and 
Pollyannaish to do so, so just accept that there must be some 
violence.'' And I say, ``Okay, I can accept that, but cannot I 
ask you to present it in a way that would diminish its risk of 
harm? Can I not ask you to show it with the punishments and the 
negative consequences and the pain and suffering?'' Because it 
is the sanitization and the glamorization of violence that 
increases that risk. In an Arnold Schwarzenegger movie, when 
someone is thrown out of the fourth story of a building in a 
fall that would obviously kill any human, you have actors get 
up, shrug it off, and walk back in to continue the battle. The 
viewer, especially the young-child viewer, takes the lesson 
from that that when you engage in some serious violence like 
that, it does not have the repercussions that it really does in 
the real world. And you often hear this in real-world scenarios 
where kids have engaged in violence and something happens. They 
say, ``Gee, I didn't know it was going to be like that in real 
life.''
    So the answer is a complex one. It is more than the amount 
of violence; it is the way in which violence is presented. And 
that, of course, poses some challenges for the ratings system.
    Senator Brownback. Well, then take your question the way 
you have framed it. Are we seeing more violence portrayed in a 
way to stimulate arousal now than we were 20 years ago? Maybe 
that is still not quite framed right. I know there is a 
difference between what context the violence is placed in.
    Dr. Kunkel. Uh-huh.
    Senator Brownback. In the hearings that I have had over the 
years I have been here, people have talked about the contextual 
violence, for example the violence you see in a war movie such 
as Saving Private Ryan or Schindler's List, is far different 
from the gratuitous violence that is pleasurable that you see 
in another place. In behavioral studies, they are saying this 
latter form has a very pernicious impact, and the former does 
not. Now, we would not know yet in the brain-mapping studies, 
because we are not that far along.
    But in these more difficult areas of violence, the 
pleasurable violence, are we seeing more of that in the 
entertainment industries over the last 20 years?
    Dr. Kunkel. We do not have data as old as 20 years, because 
at that point in time we were not clear on all of these 
variables. But we do know, from looking in recent years, going 
back to the mid-1990s, that the portrayals of violence commonly 
include these high-risk factors. One of the most troubling 
areas of findings is that programming intended for children, 
children's cartoon programming, it is not realistic and 
graphic, but it, nonetheless, has many high-risk features, 
because the violence is perpetrated by attractive characters, 
has a number of other features that actually make it very 
worrisome. Again, the industry will say, ``Oh, well, that's not 
realistic violence, and so we're not worried about that. That 
doesn't trouble us.'' From the perspective of a young child, 
all television is realistic. They think the commercials occur 
to give the actors a rest. And so cartoon violence is a serious 
concern for young children. It is very, very compelling 
evidence from the content studies that the context surrounding 
the violent portrayals enhances its risk of harmful effects 
just about as much as you possibly could if you were trying to.
    Senator Brownback. Dr. Cantor?
    Dr. Cantor. If I could just amplify on that, what Professor 
Kunkel is talking about, in terms of harms. He is talking about 
the harms of increasing violent behavior. But different 
contextual features increase the possibility of fears and 
anxieties. And, certainly, we know that movies and television 
programs have become more graphic and provide more scary images 
than they did 20 or 30 years ago, and those harms are 
different.
    So, when we say that certain contextual features are the 
most harmful in terms of making kids more aggressive, there are 
a different set of features that are likely to cause them to 
have nightmares. And it is clear that movies, particularly, 
over the years have become much more graphic and much more 
horrifying. And in general, kids' anxiety levels have increased 
dramatically over the past 40 years.
    Senator Brownback. You all have been supportive, I believe, 
in your statements for more research, particularly in the field 
of brain-mapping so that we can find out what is going on in 
the head. We have a lot of behavioral studies. We could of 
course still use some more support there. But I would like to 
see more about what is going on in the mind while watching 
various types of movies. I think Dr. Kunkel, you mentioned that 
you would like to see interplay of movies with different 
contextual subjects.
    What would we learn if every movie that came out had some 
form of brain-mapping study before it was released so that we 
knew, here is the activity that is going on, here is what is 
being stimulated, at least in a small section? With virtually 
all movies, the industry does--I think in all of them--
marketing studies well in advance, as well as screening the 
movie targeted to age groups to see the response. What would we 
learn from that sort of broad-based type of information?
    Dr. Rich. I think it would be extraordinarily hard to do. I 
mean, these studies, as you will hear, are very difficult to do 
in terms of the amount of technology and technicians necessary, 
in terms of simply making a child sit still for that long, if 
anybody has ever tried to make a child sit still, for any 
reason, let alone one where a movement of a millimeter is going 
to basically obscure your results.
    So I think it is an unrealistic hope to do it with every 
single movie. What I do think could be done is some kind of 
monitoring, sort of quality assurance, you know, with 
individual movies, sort of like they do not inspect every piece 
of beef that goes through; they inspect randomly every tenth or 
seventh or whatever. And I think that that may be possible.
    But I think before any of that occurs, we need to know what 
it is we are seeing. We need to do the basic research of 
understanding these mechanisms, where does the brain go with 
this type of material versus that type of material, before we 
can determine what is dangerous. Is it the amygdala? Is that 
where the action is? Or are there other factors that mediate 
that in various ways?
    So I think that one of the things that we can do is 
extrapolating from these brain-mapping studies features of 
these media that tend to push kids' brains into directions that 
are harmful for them and then use that material to help create 
a more scientifically rigorous and objective ratings system, 
whereby we can recognize those features in movies and 
television and video games and rate them accordingly.
    Senator Brownback. Maybe you will not want to comment on 
this, but will we be able to find in some of the brain-mapping 
work, do you think, long-lasting markers in the brain from 
entertainment violence? Dr. Cantor has talked about, years 
later, people bring up vivid images of things they have seen 
years earlier. Are we going to be able to find that, or is this 
just way too early to tell in this research field?
    Dr. Cantor. Well, I do not know how far technology is going 
to progress. I mean, certainly it has progressed very far. And 
I would yield to my colleagues on the next panel for a more 
definitive answer. But it seems very clear that changes occur 
in the brain as a function of traumatic reactions, and those 
changes are considered indelible by some experts in brain 
reactions to trauma. So I think it is going to be there in the 
brain, and hopefully technology will be able to find it and 
understand. And then I think one of the values of this research 
is, of course, to understand what is happening, but also to 
point out that here is a concrete place where we can find this 
difference to make it clear to parents and even kids as they 
grow older that these are consequences that are going to stay 
with them if they are not careful about their media exposure.
    Senator Brownback. You have commented, Dr. Cantor, about 
how we are conducting a vast experiment in raising children 
with the exposure that we are allowing. Is this experiment 
comparable to feeding our children fatty food constantly and 
then seeing how they turn out, or what is it--you talk in very 
dangerous terms when you say ``a vast experiment'' here.
    Dr. Cantor. I believe it is very dangerous, and I believe 
that parents need to be at least as concerned about what their 
children consume in the media as what they consume while 
eating. Both can have very long-term and devastating 
consequences. And it is a vast experiment, because we were not 
designed--I think that Dr. Rich made a very good point about 
the fact that we were not designed to have our fight-or-flight 
reactions going wild every day for 3 or 4 hours while we are 
watching television. We were designed to have that mechanism 
tripped when it was necessary to save our own lives. Now we do 
not have to do that very often, fortunately, in our society. 
But what we have--we have developed a technology that brings 
these horrible and threatening images into our homes and trips 
that mechanism over and over again.
    What the brain mapping is already showing is that our 
perceptual apparatus seems to give messages to the brain when 
we see somebody slit someone's throat in these horrible movies. 
These messages are very similar to what the brain would get if 
that was actually happening in front of us. And the 
consequences are very dire, apparently. But it is only because 
technology has made it possible to see somebody do this over 
and over again. Whereas, in the real world, fortunately, that 
would probably never happen. Or if it happened to us once, that 
would be it.
    So we have just created, by technology, an entertainment 
system that is based on horror and horrible things. And the 
interesting thing is that we call it ``entertainment.'' And we 
call it entertainment, I think, because it does arouse us and 
give us some kind of a charge. But the fact that our society 
has labeled this ``entertainment'' and has put so much of its 
entertainment resources toward these things, as opposed to 
spending more time developing other interesting, fun themes, is 
unfortunate.
    I think we could find other--if we put more resources into 
other things, we might be able to entertain people without 
these negative consequences.
    Senator Brownback. Yes. I was just sitting here as you were 
mentioning that, thinking of the original horror movies, such 
as perhaps ``Frankenstein'', and how those movies would 
probably be laughable today given the standards of the 
technology now. You would probably laugh at the original 
Frankenstein set of movies instead of being horrified.
    Dr. Cantor. Well, little kids will still get----
    Senator Brownback. Yes.
    Dr. Cantor. But as they grow up and become desensitized--I 
mean, the film industry is very proud of how it can create 
these horrific images, and they get awards for it. But these 
images, are incredibly disturbing to the human system. And just 
calling this entertainment and having repetitive exposure can 
have long-term effects. And I think, way back, the Greeks had 
tragedies. And everybody says, ``Oh, well, they had it back 
then.'' But I imagine that you got to go to one tragedy a year, 
because this was live and it was very difficult to put 
together. But we can have 24 hours a day, seven days a week, 
Greek tragedies coming at us. And the effects on our immune 
system, our health, our psychological health, are enormous.
    And I think brain mapping is really going to help get at 
what is going on inside in ways that we can get at only 
peripherally by asking people to report with their words.
    Dr. Rich. To extend what Dr. Cantor was saying, not only is 
this a vast experiment; it is a vast uncontrolled experiment. 
An experiment, you know, sort of assumes that someone sat down 
and said, ``Let's test this. Let's see what this compared to 
this looks like.'' And we are in areas now where those of us 
who do research on a regular basis are saying, ``Will I be able 
to get this past the ethics board of the institution at which 
I'm doing it,'' because I am asking whether humans can deal 
with material that the ethics board may say, ``No, you can't 
show kids that.''
    If you think about it, we are doing this experiment with 
movies that the industry itself says are not good for kids and 
yet markets to kids. We are doing that with video games. We are 
doing it every single day, as you say, 24 hours a day. But I 
think to call it an experiment, unfortunately, elevates it to a 
level of thought and control that it does not have. It is out 
of control.
    Senator Brownback. Dr. Rich and others, is it fair to say 
that there is clearly a public health impact to consuming the 
violent entertainment that we are doing today in this vast 
experiment?
    Dr. Rich. Absolutely.
    Senator Brownback. Dr. Kunkel?
    Dr. Kunkel. Absolutely.
    Dr. Cantor. Absolutely.
    Senator Brownback. And none of you have any qualms about 
saying that there is a public health impact from consuming the 
levels of violent entertainment that we have today.
    Dr. Rich. I see it every day in children who come in to see 
me.
    Dr. Kunkel. It is a risk factor, in the same way that 
cigarette smoking is a risk factor. Not every one who smokes 
cigarettes dies of lung cancer, but it is a statistically 
significant risk factor. The more you smoke, the longer you 
smoke, the more likely the negative outcome. This same 
relationship exists with TV violence. It is just that TV 
violence is not the only factor that contributes to real-world 
violence----
    Dr. Cantor. Right.
    Dr. Kunkel.--and aggression.
    Dr. Cantor. I would say it is a risk factor for becoming 
violent, but also there are effects on everyone, such as 
increased levels of hostility, feeling anxious, those kinds of 
things that do not always--there is a small percent that become 
violent, but there is a much more pervasive effect on most kids 
that has to do with emotional desensitization, fears, and those 
sorts of things.
    Senator Brownback. So all of you--I want to be very clear 
on this--all of you believe that the levels of violent 
entertainment being consumed by our children today cause 
significant public health impact.
    Dr. Cantor. Yes.
    Dr. Kunkel. Yes.
    Dr. Rich. And it is one in which we can intervene, even 
more importantly.
    Dr. Kunkel. Yes, we stand with all of the agencies that 
have been mentioned here today, the U.S. Surgeon General, the 
National Institute of Mental Health, the National Academies of 
Science, all of whom or all of which have reviewed this 
evidence and come to the same conclusion.
    Senator Brownback. Thank you all very much. It has been a 
very instructive, very strong panel, and I appreciate very much 
your attendance.
    The next panel includes Dr. Daniel Anderson. He is a 
professor in the Department of Psychology, University of 
Massachusetts at Amherst, and Dr. John Murray, professor at 
Kansas State University in Manhattan, Kansas.
    Dr. Anderson, thank you very much for joining us. This 
panel will be talking about the specifics of the brain-mapping 
work and what we have found to date. I appreciate very much 
your attendance, and the floor is yours.

        STATEMENT OF DR. DANIEL R. ANDERSON, PROFESSOR, 
            DEPARTMENT OF PSYCHOLOGY, UNIVERSITY OF 
                         MASSACHUSETTS

    Dr. Anderson. Thank you, Mr. Chairman.
    I have studied the children's use of television and the 
impact of television on children for 30 years. Unlike the 
previous panelists, my focus has actually been more on the 
positive as well as the negative impact of media. My work is 
focused on the impact of television on cognitive development 
and academic achievement. I have done, also, a bit of work on 
violence.
    American children spend more time with electronic media 
than they spend in any other activity except sleep. While some 
research has shown negative effects, especially from television 
violence, other research has shown the positive impact of 
television programs that are designed to benefit children.
    For example, colleagues and I interviewed teenagers we had 
intensively studied as preschoolers in Springfield, 
Massachusetts, and Topeka, Kansas, your home State, during the 
early 1980s. We found that the more these teens had watched 
educational programs such as ``Sesame Street'' when they were 
preschoolers, the better grades they received in high school in 
English, math, and science. They also reported reading more 
books for pleasure than did teens that had not been regular 
viewers of educational television. I should also point out that 
the more these kids had watched educational television as 
preschoolers, the less likely they were to endorse violent and 
aggressive solutions to common problems that are encountered on 
a daily basis. The point is that electronic media can be 
designed to have a beneficial impact on children, an impact 
that is traceable more than a decade later.
    The design of educational TV programs has greatly 
benefitted from behavioral research concerning children's 
attention to and comprehension of television. Such research has 
been incorporated into the design of popular and effective 
preschool TV programs. And here I will name the ones that I 
have worked on--``Sesame Street,'' ``Blue's Clues,'' ``Dora the 
Explorer,'' ``Bear in the Big Blue House,'' among others.
    Now, the advance of medical technology has made possible an 
extraordinary opportunity to further increase our understanding 
of how children and adults attend to and comprehend electronic 
media. This advance allows the three-dimensional imaging of 
brain activity. This can be used to track brain activity as 
viewers watch and respond to film, television, or computer 
displays.
    I have had the fortune to design one of the first studies 
of brain activation as adults viewed visual action sequences in 
films. My colleagues in this research were from the University 
of Massachusetts and from the Memorial Sloan-Kettering Cancer 
Center in New York, where the research took place.
    We wanted to know what parts of the brain are activated 
when adults comprehend visual film action sequences. Action 
sequences unfold over many successive film shots, and the 
viewer, in order to understand the action sequence, must make 
many inferences concerning space, time, implied but not 
explicitly shown actions, and character intentions, among 
others.
    Although comprehension of film action sequences seems 
effortless to adults, we had no idea what parts of the brain 
accomplished this. We showed action sequences to adult viewers 
and recorded their brain activation using functional magnetic 
resonance imaging. We compared this activation to brain 
activation during sequences of unrelated film shots. These 
sequences were just jumbles of images. We were interested in 
identifying those areas of the brain that are uniquely 
activated by the coherent, understandable sequences. We argue 
that these brain areas are those that are most important for 
visual comprehension of film.
    We found 11 such brain areas, all in the cerebral cortex, 
and most in the right hemisphere. When we considered what is 
known about the function of these brain areas, a sensible story 
emerges. For the first time, we really begin to understand how 
the brain puts together the pictures and makes sense of what we 
see. These areas are involved in face and object recognition, 
the perception of action, movement, space, the sequencing of 
events, and the emotional interpretation of experience.
    We consider this study just the beginning of what neuro-
imaging can tell us about media comprehension and, eventually, 
media impact. Based on my experience with behavioral research, 
the information gained from neuro-imaging will eventually 
inform us about ways to maximize the beneficial impact of media 
and about ways to minimize the harmful impact. I strongly 
support any initiative to provide dedicated funding to this 
emerging and most promising area of science.
    [The prepared statement of Dr. Anderson follows:]

   Prepared Statement of Daniel R. Anderson Professor, Department of 
                Psychology, University of Massachusetts
    American children spend more time with electronic media than they 
spend in any other activity except sleep. While some research has shown 
negative effects, especially from television violence, other research 
has shown the positive impact of television programs that are designed 
to benefit children. For example, colleagues and I interviewed 
teenagers we had intensively studied as preschoolers in Springfield, 
Massachusetts and Topeka, Kansas during the early 1980s. We found that 
the more these teens had watched educational programs such as Sesame 
Street when they were preschoolers, the better grades they received in 
high school in English, math, and science. They also reported reading 
more books for pleasure than did teens that had not been regular 
viewers of educational television. \1\ The point is that electronic 
media can be designed to have a beneficial impact on children, an 
impact that is traceable more than a decade later.
---------------------------------------------------------------------------
    \1\ Anderson, D.R., Huston, A.C., Schmitt, K.L., Linebarger, D.L. & 
Wright, J.C. (2001). Early childhood television viewing and adolescent 
behavior. Monographs of the Society for Research in Child Development, 
68(1), Serial No. 264, 1-143.
---------------------------------------------------------------------------
    The design of educational TV programs has greatly benefited from 
behavioral research concerning children's attention to and 
comprehension of television. Such research has been incorporated into 
the design of popular and effective preschool TV programs such as 
Sesame Street, Blue's Clues, Dora the Explorer, and Bear in the Big 
Blue House, among others. \2\ Now, the advance of medical technology 
has made possible an extraordinary opportunity to further increase our 
understanding of how adults and children attend to and comprehend 
electronic media. This advance allows the 3-dimensional imaging of 
brain activity. This can be used to track brain activity as viewers 
watch and respond to film, television, or computer displays. I have had 
the fortune to design one of the first studies of brain activation as 
adults viewed visual action sequences in films. My colleagues in this 
research were from the University of Massachusetts and from the 
Memorial Sloan Kettering Cancer Center in New York where the research 
took place.
---------------------------------------------------------------------------
    \2\ Anderson, D.R. (in press). Watching children watch television 
and the creation of Blue's Clues. In H. Hendershot (Ed.), Nickelodeon 
nation: The history, politics, and economics of America's only TV 
channel for kids. New York: New York University Press.
---------------------------------------------------------------------------
    We wanted to know what parts of the brain are activated when adults 
comprehend visual film action sequences. Action sequences unfold over 
many successive film shots and the viewer, in order to understand the 
action sequence, must make many inferences concerning space, time, 
implied but not explicitly shown actions, and character intentions, 
among others. Although comprehension of film action sequences seems 
effortless to adults, we had no idea what parts of the brain accomplish 
this. We showed action sequences to adult viewers and recorded their 
brain activation using functional magnetic resonance imaging. We 
compared this activation to brain activation during sequences of 
unrelated film shots. We were interested in identifying those areas of 
the brain that are uniquely activated by the coherent, understandable 
sequences. We argue that these brain areas are those that are most 
important for visual comprehension of film.
    We found 11 such brain areas, all in the cerebral cortex, and most 
in the right hemisphere. When we considered what is known about the 
function of these brain areas, a sensible story emerges. These areas 
are involved in face and object recognition, the perception of action, 
movement, and space, the sequencing of events, and the emotional 
interpretation of experience. \3\
---------------------------------------------------------------------------
    \3\ Anderson, D.R., Fite, K.V., Petrovich, N. & Hirsch, J. (2003). 
Cortical Activation During Comprehension of Visual Action Sequences: An 
fMRI Study. Unpublished manuscript, University of Massachusetts at 
Amherst.
---------------------------------------------------------------------------
    We consider this study just the beginning of what neuroimaging can 
tell us about media comprehension and eventually, media impact. Based 
on my experience with behavioral research, the information gained from 
neuroimaging will eventually inform us about ways to maximize the 
beneficial impact of media and about ways to minimize the harmful 
impact. I strongly support any initiative to provide dedicated funding 
to this emerging and most promising area of science.

    Senator Brownback. That is a good way to put it at the end, 
too, that we can learn what works for good and what works for 
ill in the media, because television can be very beneficial. 
You have listed several of the favorite programs of my two 
younger children. They also have several others that were not 
listed earlier, but those programs have more of a violent touch 
to them than the ones you listed. They like those, as well.
    Dr. Murray, good to see you, old friend.
    Dr. Murray. Well, thank you very much.
    Senator Brownback. Welcome to the Committee.

  STATEMENT OF JOHN P. MURRAY, Ph.D., PROFESSOR, KANSAS STATE 
                           UNIVERSITY

    Dr. Murray. Thank you, Chairman, for inviting me. And thank 
you for your continued support of this issue, because you have 
been talking about it for a long time.
    And, as we know, and as we have heard from other testimony, 
this is an issue that has confronted Congress and the Senate, 
in particular--I dare say this very Committee, Senate Commerce 
Committee, in 1969, and I think it was in this room. I actually 
attended that hearing, when the Surgeon General was asked what 
he thought about TV violence and would he be willing to 
undertake a major study of TV violence and children, which he 
did. And I had the good fortune to serve on that Committee back 
in 1969.
    Senator Brownback. Think of the context of the--I do not 
mean to interrupt you--but violence in 1969, what type of 
television shows we were talking about at that time?
    Dr. Murray. Oh, let us see. I will take a guess. My memory 
fades a bit, but they would have been ``Kojak,'' ``Starsky and 
Hutch;'' before that, ``Dragnet.''
    Senator Brownback. ``Dragnet'' is violent.
    Dr. Anderson. If I could comment on that, the Saturday 
morning cartoon shows were exceptionally violent in ways that 
they are not now, and they tended to show explicit violence 
with gore. That all dropped out after----
    Dr. Murray. But you are quite correct; it was a very 
different kind of violence than the kinds of violence we have 
seen now. And you have raised that issue with the previous 
panel, and there is the general feeling of the kinds of 
violence--both the kinds of violence and the quantity of 
violence and the graphic nature has greatly increased from the 
1960s to the 1970s to the 1980s to the 1990s and now into the 
new century.
    So this has been a longstanding issue. It is one that we 
have tried to grapple with in many ways. I have spent 30 or so 
years doing that in various ways.
    But what I would like to talk about today is where we have 
come and where we would like to go with the kinds of technology 
that we have available to look at the issue of brain mapping.
    I do not know whether I could use some of these pictures.
    Senator Brownback. The charts? Maybe we can get some 
assistance. Jana, would you mind helping out with that? Get 
some charts over here.
    Dr. Murray. A few charts, but I will not use many charts. 
But while we are putting this up, the issue, as others have 
pointed out, was discussed by the Surgeon General's report in 
1972, by the National Institute of Mental Health report in 
1982; the American Psychological Association produced a report 
in 1992--I do not know what the meaning of these 10-year cycles 
are, but we have missed it for 2002. I was fortunate to be on 
the American Psychological Association panel with some other 
psychologists--a task force appointed by the American 
Psychological Association, the ``Task Force on Television on 
Society,'' appointed in 1986. We spent 5 years interviewing 
consumer groups who were concerned about violence, interviewing 
the Screen Actors Guild, the Directors Guild, performers, 
producers of programming in Hollywood, interviewing other 
researchers and gathering evidence. And we produced a report 5 
years later, in 1992, entitled ``Big World, Small Screen, The 
Role of Television in American Society,'' which is the official 
report of the American Psychological Association study, and I 
will leave that for the Committee. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Also, my colleagues and I, Dr. Ellen Wartella, at the 
University of Texas, and Dr. Norma Pecora at Ohio University, 
have been working on a new book to review the 50 years of 
research on television and children. And I have with me--alas, 
not the full book--Dr. Anderson will be one of the contributors 
to the book, as well, the chapters--but I do have the 
bibliography that we have assembled for that report; 1,945 
research reports and papers published since the 1950s through 
2003. About 600 of those deal with television violence issues. 
The rest deal with other aspects of television and children. 
So, it is not for want of some knowledge about these concerns 
that we are here today. There is a great deal of evidence that 
suggests that violence is worrisome.
    But, as others have testified, it is rather like the 
smoking and health issue. I think you are quite correct in 
drawing that parallel, because it is the issue of convincing 
not just mothers and fathers and the general public that this 
is a serious concern, but convincing the television industry 
that stands to either lose or gain quite alot if they change 
their format. And they see no reason to change some of the 
programming, because they feel that it works for them. It gets 
audiences, it gets ratings, it gets viewers.
    I think the work that we are beginning to talk about 
embarking on, on brain mapping and looking at the ways in which 
children process violence, is a way to break that stalemate.
    If I could have that--yes, that next chart.
    I always put up this chart (slide No. 1) that--I think 
Senator Brownback has seen this before, and he particularly 
likes it because it shows the way bills work through Congress. 
It is complicated.
    [Laughter.]
    Dr. Murray. My point in using this chart is to explain 
how--to talk about the fact that we need to understand how 
observing violence on television leads to aggressive reactions 
in children or adults who watch the programming.
    Much of the research over the past 50 years has been on 
this right-hand side of the graph showing that there is a 
complex interrelationship of viewing and leading to aggressive 
behavior. What we have always assumed is the activity on the 
left-hand side, that watching violence leads to encoding or 
memorizing the violence or recalling the violence, rehearsing 
it in some way in your own mind, and then storing that away in 
a manner in which it might affect your subsequent behavior. We 
have always hypothesized that, but we have not been able to 
look at that until very recently, with the advent of functional 
magnetic resonance imaging (fMRI).
    And that is what we have been doing with our study at 
Kansas State University and at the University of Texas Health 
Science Center in San Antonio, where we were able to invite 
children to come to the Research Imaging center, where we had 
equipment, magnetic resonance imaging units, available to study 
their brains while they watched violent and nonviolent 
material.
    If you have ever had an MRI, you know that it can be 
sometimes a little off-putting and it is a little noisy and 
what have you, but the children were less intimidated by this. 
They were quite interested in the technology and the science of 
it.
    They would view the video clips that we showed them while 
they were reclining in a magnetic resonance imaging unit. We 
showed the videotapes to them by projecting video images into a 
plastic mirror that projected the video down the bore of the 
MRI and bounced the image off a plastic mirror right above 
their head. So, while the mirror was only about the size of the 
palm of your hand, it, in fact, filled their whole visual 
field. And they listened to the audio track through headphones 
that were like the old airline headphones. They are air-powered 
headphones rather than electrical-powered headphones, because 
that would not work in a strong magnetic field.
    So this is an example (slide No. 2) of one of the children 
who participated in this study. The kinds of material that we 
showed them consisted of one of three kinds. Well, they saw all 
three kinds of video stimuli. The violence that we used, we 
took as video clips from a movie, a popular movie at the time, 
Rocky IV, Sylvester Stallone's most recent movie at that time. 
It features, like many of the Rocky movies, a fight at the 
beginning, and a fight at the end, and a lot of ``stuff'' that 
goes on in between.
    We were interested in this particular kind of violence for 
two reasons. One, you may note--this is the jacket cover from 
the DVD (slide No. 3) you may note that it was PG violence. We 
were going to be screening this to 8- to 12-year-old boys and 
girls, so we wanted to use material that they would normally 
see. Using things like ``Reservoir Dogs'' or there is far more 
ghastly violence out there, but using that would be 
inappropriate with these youngsters. And we wanted to see just 
how they processed this sort of ``PG'' violence.
    So we used two clips, two three-minute clips from Rocky 
IV--a fight at the beginning that lasts about three minutes, in 
which Rocky's friend Apollo takes on a superhuman Russian 
fighter, Drago, I believe his name was, over here, and Drago 
beats him bloody and senseless and kills him in the ring. It 
ends with Apollo falling to the ground, blood pouring out. And 
the final clip, as I recall, is Drago saying, ``If he dies, he 
dies.'' And that is sort of--you end there. The ending fight 
was Rocky then taking on the superhuman Russian fighter and, of 
course, winning in the end after a bloody battle of 3 minutes.
    Now, what was interesting about this is that this is the 
kind of violence that most kids will see in films, will see in 
television. As a matter of fact, this played on television, 
because we pulled that from an earlier study. So, it played on 
commercial television, and any child would be likely to see 
that. The other issue was that we wanted it to be interpersonal 
violence, one-on-one sustained interpersonal violence, and that 
is the other reason for choosing this video clip.
    Now, they actually saw two three-minute clips of these 
boxing scenes. They also saw two other kinds of programming, 
nonviolent programming, which consisted of a three-minute clip 
of National Geographic special of baby animals at play--we 
wanted a lot of action, but no violence--and a three-minute 
clip of Children's Television Workshop program, 
``Ghostwriter,'' which is a children's program for that age 
group, 8- to 10-year-olds, dealing with literacy issues and 
reading skills, but it is set in a mystery context. So there 
was human action, a lot of movement, some mystery, but no 
violence. They also saw, as a part of the control, another set 
of two three-minute clips of just a white X on a blue screen. 
And the reason for that is that when your eyes are open, a 
whole bunch of activations will occur in the brain just 
watching anything. And so we wanted to be able to pull out 
anything that was related to the nonviolence.
    The next, and I believe my final, slide (slide No. 4) is 
the results of this study. We scanned eight children--five 
boys, three girls--who participated in the study, so it is a 
beginning study, and it is, as Dr. Anderson pointed out, very 
difficult to do these studies, so this is just the beginning. 
We scanned their brains continuously in the MRI while they 
watched these six three-minute clips of violence, nonviolence, 
and control. So, there were 18 minutes of continuous scanning 
in the MRI, which is a huge amount of information on the 
children's brains. We also scanned for about 5 minutes before 
and 5 minutes after in order to get a structural image of their 
brains, because everyone's brain differs. That is a nice thing 
to know. We are all a bit different in size and structure. But 
the basic pieces there are all in the same place.
    And what this particular slide is, is the composite of all 
eight children. There happened to be eight slides here, or 
eight pictures here, but each one is a composite of all eight 
children while they were viewing violence with all the other 
video stimuli subtracted out. So we compiled all of their 
brains for the 6 minutes that they viewed the violence and 
subtracted out all of the activations that were related to 
viewing 6 minutes of the X or viewing 6 minutes of the 
nonviolence. So this is the residual activations of these eight 
children. And these slides are different slices through the 
brain--we did not have to do that, thankfully--the technology 
allows us to re-compose these images without slicing open the 
brain. Starting at the top left, it is the slice very much up 
at the top of the brain, and then successive slices all the way 
down. You begin to see where the eyeballs are as you come down 
lower into the brain here. And then down at the very base of 
the brain down here, the last slide.
    What is significant about these? We went into this assuming 
that we would see--because we were showing them violence--that 
we would see emotional arousal, that we would see activation of 
an area of the brain that senses threat or danger, and others 
have made reference to this earlier, and it is an organ in the 
brain called the amygdala. And there are actually two of them, 
one of the right and one on the left, at the base of the brain. 
Amygdala, I believe, is Latin for almond. It is sort of an 
almond shape about the size of your thumbnail. And that is the 
organ that prepares the body for fight or flight. It senses 
danger in the environment. If someone were to drop a snake in 
front of the recorder, I think you would gasp for a moment. And 
that gasp, that--gasp--is the amygdala preparing the body for 
danger and preparing the body for fight or flight. It stops 
respiration, it pulls blood back from the periphery into the 
central core so that you do not bleed to death if you are 
attacked, and so on, and so forth.
    We expected to see activation of the amygdala, because what 
they were watching was an inherently threatening encounter. And 
we expected to see predominantly right-sided activation--
activations on the right hemisphere of the brain, because that 
is an area in which you see a lot of emotional processing. 
Well, we got that. What you see here are these predominantly 
right-sided activations. Here, you have to go down way into the 
base of the brain, but you see strong activation of the 
amygdala. Right here, on the right side. That is even more 
interesting, because that is where the negative emotional 
arousal was sitting, as opposed to the left side of the 
amygdala. So you get activation there on the right side.
    The other things that we found, though, the two things that 
we found that were surprising are, up here in the very first 
picture you see a little activation in an area on the right 
side of the brain, on the cortex, up at the top, called the 
premotor cortex. It is an area of the brain that controls not 
movement, but ``thinking'' about movement. So if I were to plan 
to pick up that glass, if I went to reach for the glass, before 
I ever moved my hand the premotor cortex would kind of play out 
what I have to do to position the hand and move it in and grab 
this without spilling it all over the microphone. And then the 
motor cortex would kick in, and that would actually control the 
physical movement.
    What we saw was premotor cortex, and we looked at that for 
a moment and said, ``Gosh, I wonder what's going on there?'' 
Well, the answer to that, after my colleagues and I pondered 
that for awhile, the answer to that is that what was happening 
is that these youngsters could not move in the MRI. They were 
completely immobilized in the MRI, because any movement would 
cause problems with the brain scans. But they were watching--
remember, they were watching close interpersonal violence, 
constant beatings and boxing and fighting. And what was going 
on there, the best interpretation, is that they were thinking 
about making the movements. They could not make the movements, 
so you did not see motor cortex activated, but you saw premotor 
cortex. They could not make the movements, but they were 
thinking about ``imitating'' these movements.
    Any parent who has watched a young child or several young 
children sit and watch, say, some sort of kickboxing cartoon or 
a Power Rangers cartoon or Power Rangers on television, you 
will notice that they start kind of--about halfway through, 
start pushing and shoving and start kickboxing with their 
brothers and sisters. That is exactly what we are talking about 
here, you were getting spontaneous attempts to imitate the 
violence that they were seeing, the boxing in this case.
    The other area of the brain that was really surprising was 
in the back of the brain, up here at the top, an area called 
the posterior cingulate. It is an area of the brain that we 
were really surprised to see activated in this context. My 
colleagues were doing work at the Audie Murphy Veterans 
Administration Hospital, which is part of the San Antonio 
Medical Center complex, working with military veterans who are 
suffering from severe post-traumatic stress disorder. They were 
also doing some work with women who had been victims of rape 
and were suffering post-traumatic stress disorder. And when 
they would put them in the MRI and ask them to recall the 
memories, the things that were causing them so much distress, 
these memories that flood back and cause night sweats and 
terrors, as they began to recall those, it was the posterior 
cingulate that was activated.
    The general interpretation is that that area in the back of 
the brain is where human beings store traumatic memories, or 
significant life-threatening memories or really important 
memories that have to be stored for long-term memory, or they 
get stored away for long-term memory, and are easily recalled. 
Long-term memory, in the normal sense of remembering the 
multiplication tables, if you can cast your mind back to that, 
is usually stored on the left side, in the left hemisphere, in 
the parietal area. But, the posterior cingulate is a very 
peculiar area of the brain that is specialized to storing 
dangerous, significant memories.
    And here these kids were storing and activating an area of 
the brain that seems to be reserved for long-term memories of 
trauma, while they were watching what they knew to be 
entertainment violence.
    My point on all this is that they could tell you, every one 
of those children could say, ``Oh, I know Rocky programs. I've 
seen some Rocky films.'' They knew it was make-believe. They 
knew it was staged. But the brain did not know that it was 
staged. The brains of these children, as, I think, the brains 
of everyone else, treat this entertainment violence as 
something significant, something real, and something that you 
should pay attention to and store it away for long-term memory.
    That, I think, is the scariest part of the whole study. I, 
again, emphasize that this is an initial study. It is very 
early in our investigations. But what we have got is a story 
that can be quite frightening, that kids are growing up 
watching a lot of violence, and their brains, at least, and 
they themselves, are treating it and storing away in a manner 
that allows them to recall it instantly and use it as a guide 
for behavior. So by the time--there have been studies that show 
that--based on content analysis, that by the time a youngster 
graduates from high school, he will have seen 100,000 assaults 
and, you know, 30,000 murders. There are various figures 
floating around. But all of those are stored away, or at least 
a big chunk of them are stored away as possible guides for 
future behavior. So someone pushes in front of them in line, 
someone disses them, they do not have to think for a long time 
about how to respond. They have seen how Sly Stallone will 
respond, and they will lash out and lash back.
    So our concern is about the long-term memories and the 
long-term effects. We have already seen studies that show long-
term effects of viewing violence. And we hope to pursue this 
kind of research with the help of Congress in future brain-
mapping studies. And I will leave some extra copies of our 
initial report on that study here for them.
    [The prepared statement of Dr. Murray follows:]

 Prepared Statement of John P. Murray, Ph.D., Professor, Kansas State 
                               University
Neurobiological Research and the Impact of Entertainment Violence on 
        Children
    Concern about the impact of television violence began with the 
start of television broadcasting in the United States. Although the 
first commercial television station was licensed by the Federal 
Communications Commission in 1941, regular broadcasting did not begin 
until after World War II and became established later in 1947 or 1948. 
Nevertheless, the first official expression of concern about TV 
violence occurred in the U.S. Congress in Hearings in the Senate and 
House in 1952 and 1954. So, the issue of TV violence is not new to 
Congress. What is new, however, is the breadth and depth of research 
that has been accumulating on the impact of TV violence and, more 
recently, emerging studies of children's brain activations while 
watching TV violence.
    In recent years, I have had the good fortune to study children's 
brain responses to TV violence through the support of Kansas State 
University, the University of Texas Health Science Center at San 
Antonio, the Mind Science Foundation at San Antonio, and the College of 
Communication at the University of Texas at Austin. In addition, I have 
enjoyed the intellectual support of my colleagues at The Menninger 
Foundation of Topeka, Kansas and Houston, Texas and the Harvard School 
of Public Health and the Boston Children's Hospital Center for Media 
and Children's Health. A summary of our initial research on the impact 
of video violence and children's brain activations was published in the 
October, 2001 issue of the monthly mental health journal, Psychiatric 
Times (available online at: www.psychiatrictimes.com/p011070.html and 
attached as an Appendix to this testimony).
    Research on brainmapping and TV violence is the outgrowth of a 
large and robust scientific literature on the impact of video 
violence--research that began in the 1950s and continues to date. I and 
my colleagues, Norma Pecora (Ohio University) and Ellen Wartella 
(University of Texas, Austin), are preparing a book that will review 
the history of research on television and children and will provide a 
comprehensive bibliography of the research and publications in this 
field. (The book is: Children and Television: 50 Years of Research, 
edited by Norma Pecora, John P. Murray, and Ellen Wartella, to be 
published by Erlbaum Publishers in late 2003.) I have provided the 
Committee staff with a draft of the comprehensive bibliography of 1,945 
reports on children and television--approximately 600 of these reports 
deal with the issue of TV violence. However, the issue being discussed 
in this Hearing-- neurological correlates of video violence--is only 
foreshadowed as a future possibility in this new book because there is 
very little in the way of completed studies. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    What we have learned from the vast body of research on children and 
television--and especially the research on TV violence--is the 
suggestion that viewing violence does influence the attitudes, values 
and behavior of children and adults who view this material. The main 
types of effects are three in number:

        1. Aggression: Viewing video violence leads to increases in 
        aggressive behavior and changes in attitudes and values 
        favoring the use of aggression to solve conflicts;

        2. Desensitization: Viewing video violence may lead to a 
        decrease in concern about the pain and suffering of others; 
        lower levels of concern about violence in society; and an 
        increased willingness to tolerate violence; and

        3. Fear: Viewing video violence may lead to increased concern 
        about one's personal safety; heightened fear that one may be 
        the victim of violence; and decreased trust in the motives of 
        others--a phenomenon known as the ``mean world syndrome.''

    The effects described above have been identified in various studies 
over the past 50 years and they represent a very worrisome set of 
outcomes of violence viewing. However, much less is known about how 
these effects play out in individuals--how do children or adults come 
to understand and process the violence that they see in entertainment 
media?
    Our initial study of brainmapping and TV violence in children 
begins to provide some insights into the ways in which children process 
video violence. Much more research is needed before we can fully 
understand the effects of video violence, but enhanced brainmapping 
research can lead to significant progress in dealing with media 
violence.
    In our study, conducted at the Research Imaging Center (RIC) of the 
University of Texas Health Science Center at San Antonio (UTHSCSA), we 
used functional Magnetic Resonance Imaging (fMRI) to map the brains of 
eight children (5 boys, 3 girls), ages 8 to 13 years while they watched 
violent and nonviolent videotapes. The youngsters who participated in 
this study were normal, healthy boys and girls who were good students 
and had no history of problems at school or home.
    The children viewed six, 3-minute, video clips--two clips each of 
violence (Rocky IV), nonviolence (National Geographic and Ghostwriter), 
and a control for viewing activations (a white ``X'' on a blue video 
screen). During these 18 minutes of viewing, we continuously scanned 
their brains while they viewed in the MRI. We also scanned for several 
minutes before and after the viewing to establish structural/anatomical 
features of their brains.
    In designing the study, we anticipated that we would see emotional 
arousal to the video violence and that this would be manifested in 
significant right hemisphere activations. In particular, we anticipated 
seeing involvement of an area of the brain that senses ``danger'' in 
the environment--the amygdala--and prepares the body for `fight or 
flight' and we expected prefrontal cortex activation.
    The results of the scans confirmed our initial expectations and 
provided some additional surprising insights. In particular, two 
additional areas of the brain that were activated told us a very 
interesting story about what was happening in the minds of these young 
viewers. In the first instance, an area of the prefrontal cortex--the 
premotor cortex--was activated while viewing violence (not the other 
video clips) and this suggested that the youngsters were `thinking 
about moving' (they could not move in the MRI and had they moved we 
would see motor cortex activation). Rather, what was happening while 
the youngsters watched the boxing, was a possible attempt at imitation 
of the boxing movements--thinking about but not able to actually 
imitate the movements. This is similar to what parents have observed 
when they see young children watching kick-boxing actions; the young 
viewers are likely to start imitating the movements on their brothers 
and sisters.
    The second surprising finding was an activation in the back of the 
brain--the posterior cingulate--an area that seems to be devoted to 
long-term memory storage for significant or traumatic events. My 
colleagues in this research had been working with military personnel 
who were being seen at the adjoining Audie Murphy Veterans 
Administration Health Center for severe post-traumatic stress disorder 
(PTSD). When they scanned the brains of PTSD patients and asked them to 
recall the events and images that were causing them distress, the 
posterior cingulate was the area activated. Now, in our study, these 
children were not suffering from PTSD but they were watching traumatic 
and dramatic violence (although the movie was rated ``PG'').
    In summary, the results or our initial, and very limited study, of 
children's brain activations while viewing entertainment video 
violence, suggest that the violence is arousing, engaging, and is 
treated by the brain as a real event that is threatening and worthy of 
being stored for long-term memory in an area of the brain that makes 
`recall' of the events almost instantaneous. This is as `scary' as it 
gets; even more than an ``R'' rated slasher film. Here, we see normal 
children storing away violent images in a manner that could be used to 
`guide' future behavior. Naturally, this is only the beginning of the 
story and we need to conduct much more extensive research on 
neuroimaging and violence.
    Thank you for your consideration of this testimony.
                                 ______
                                 

           Psychiatric Times October 2001 Vol. XVIII Issue 10

                TV Violence and Brainmapping in Children

                        by John P. Murray, Ph.D.

    Research conducted over the past 30 years leads to the conclusion 
that televised violence does influence viewers' attitudes, values and 
behavior (Hearold, 1986; Murray, 2000, 1994, 1973; Paik and Comstock, 
1994; Surgeon General's Scientific Advisory Committee on Television and 
Social Behavior, 1972). Although the social effect of viewing televised 
violence is a controversial topic of research and discussion, the body 
of research is extensive and fairly coherent in demonstrating 
systematic patterns of influence. In general, there seem to be three 
main classes of effects:

  <bullet> Aggression. Viewing televised violence can lead to increases 
        in aggressive behavior and/or changes in attitudes and values 
        favoring the use of aggression to solve conflicts (Huston et 
        al., 1992).

  <bullet> Desensitization. Extensive violence viewing may lead to 
        decreased sensitivity to violence and a greater willingness to 
        tolerate increasing levels of violence in society (Drabman and 
        Thomas, 1974; Thomas et al., 1977).

  <bullet> Fear. Extensive exposure to television violence may produce 
        the ``mean world syndrome,'' in which viewers overestimate 
        their risk of victimization (Gerbner, 1970; Gerbner et al., 
        1994).

    Although we know that viewing televised violence can lead to 
increases in aggressive behavior or fearfulness and to changed 
attitudes and values about the role of violence in society, we need to 
know more about how these changes occur in viewers--the neurological 
processes that lead to changes in social behavior.
    Within the context of social learning theory, we know that changes 
in behavior and thoughts can result from observing models in the world 
around us, such as parents, peers or the mass media. The processes 
involved in modeling or imitating overt behavior were addressed in 
social learning theories from the 1960s (Bandura, 1969, 1965, 1962; 
Berkowitz, 1965, 1962), but we must expand our research approaches if 
we are to understand the neurological processes that might govern the 
translation of the observed models into thoughts and actions.
    Both Bandura (1994) and Berkowitz (1984) have provided some 
theoretical foundations for the translation of communication events 
into thoughts and actions. Bandura's social-cognitive approach and 
Berkowitz's cognitive-neoassociation analysis posit a role for 
emotional arousal as an ``affective tag'' that may facilitate lasting 
influences. With regard to aggression, we know that viewing televised 
violence can be emotionally arousing (e.g., Cline et al., 1973; Osborn 
and Endsley, 1971; Zillmann, 1982, 1971), but we lack direct measures 
of cortical arousal or neuroanatomical patterns in relation to viewing 
violence.
    The pursuit of neurological patterns in viewing violence would 
likely start with the amygdala, because it has a well-established role 
in controlling physiological responses to emotionally arousing or 
threatening stimuli (Damasio, 1999, 1994; LeDoux, 1996; Ornstein, 
1997). Indeed, a National Research Council report (Reiss and Roth, 
1993) concluded:

        All human behavior, including aggression and violence, is the 
        outcome of complex processes in the brain. Violent behaviors 
        may result from relatively permanent conditions or from 
        temporary states . . . Biological research on aggressive and 
        violent behavior has given particular attention to . . . 
        functioning of steroid hormones such as testosterone and 
        glucocorticoids, especially their action on steroid receptors 
        in the brain; . . . neurophysiological (i.e., brain wave) 
        abnormalities, particularly in the temporal lobe of the brain; 
        brain dysfunctions that interfere with language processing or 
        cognition.

    Thus, one suggestion for further research on the impact of viewing 
media violence is to assess some of its neurological correlates. In 
particular, the use of videotaped violent scenes can serve as the ideal 
stimulus for assessing activation patterns in response to violence.
    It is very likely that the amygdala is involved in processing 
violence, but the projections to the cortex are not clear. However, 
developing hypotheses about viewing violence and brain activation needs 
to start with research on physiological arousal (e.g., Osborn and 
Endsley, 1971; Zillmann, 1982; Zillmann and Bryant, 1994) and then link 
this to cortical arousal. In this regard, the work of Paul Ekman, 
Ph.D., and Richard Davidson, Ph.D., using electroencephalogram 
recordings while subjects viewed gruesome films indicated asymmetries 
in activation patterns in the anterior regions of the left and right 
hemispheres (Davidson et al., 1990; Ekman and Davidson, 1993; Ekman et 
al., 1990). In particular, positive affect (indexed by facial 
expression) was associated with left-sided anterior activation, while 
negative affect was associated with right-sided activation (Davidson et 
al., 1990).
    Our preliminary research (Liotti et al., in press; Murray et al., 
2001) has focused on the amygdala and related structures in an effort 
to identify the neurological correlates of viewing televised violence. 
In this instance, we used functional magnetic resonance imaging (fMRI) 
to map the brains of eight children (five boys, three girls; aged 8 to 
13 years) while they watched violent and nonviolent videotapes. The 
violent video segments consisted of two, three-minute clips of boxing 
from ``Rocky IV.'' The nonviolent video segments were two, three-minute 
clips of a National Geographic program on animals at play and 
``Ghostwriter,'' a children's literacy program set in a mystery 
context. In addition, we presented two, three-minute control, rest/
fixation clips of an ``X'' on a blue screen.
    We conducted whole-brain (18 to 22 slices) echoplanar fMRI 
throughout the 18 minutes of viewing. Following the viewing, structural 
or anatomical (aMRI) images were acquired. Both the fMRI and aMRI 
images were normalized to Talairach space, and statistical analyses 
were conducted with task-induced blood oxygenation-level dependent 
(BOLD) changes detected using a conventional statistical parametric 
mapping method of voxel-wise independent paired t-tests.
    In this study, we found that both violent and nonviolent viewing 
activated regions implicated in aspects of visual and auditory 
processing. In contrast, however, viewing violence selectively 
recruited right precuneus, right posterior cingulate, right amygdala, 
bilateral hippocampus and parahippocampus, bilateral pulvinar, right 
inferior parietal and prefrontal, and right premotor cortex. Thus, 
viewing televised violence appears to activate brain areas involved in 
arousal/attention, detection of threat, episodic memory encoding and 
retrieval, and motor programming. These findings are displayed in the 
Figure, which provides the significant contrasts between the violence-
viewing and nonviolence-viewing sessions. The regions of interest in 
the composite activations of the eight children included the amygdala, 
hippocampus and posterior cingulate. These areas of the brain are 
likely indicators of threat-perception and possible long-term memory 
storage of the threat-event (particularly, these patterns are similar 
to the memory storage of traumatic events in posttraumatic stress 
disorder) (Brannan et al., 1997; Liotti et al., 2000). These activation 
patterns are important because they demonstrate that viewing video 
violence selectively activates right hemisphere and some bilateral 
areas that collectively suggest significant emotional processing of 
video violence.
    Of course, this is a preliminary study with a small sample of 
children, and we must conduct further studies with larger samples of 
young viewers. However, this preliminary research leads us to conclude 
that there are important, theoretically predictable patterns of 
neurological response to viewing media violence. In our next series of 
studies, we will explore these neuroanatomical correlates of viewing 
violence in children who have had differing experiences with violence 
in their lives in order to better understand the processes of 
sensitization and desensitization.
    In this instance, we will assess the responses of children who have 
experienced violence as victims of abuse, in contrast to youngsters who 
are more aggressive. We also expect to see differences in response to 
viewing violence among the abused, high-aggression and low-aggression 
children. We expect to see increased responsiveness to threat in the 
abused children and decreased responsiveness to threat in the high-
aggression children.
    Furthermore we anticipate differences in media preferences and 
viewing patterns to correlate with the level of aggression in these 
children. This constellation of findings will begin to address the 
patterns of response to aggression and the learning of aggression from 
media models. The issues of desensitization and enhanced aggression may 
be related to the patterns of brain activation observed in these 
children. The social significance of brain mapping and violence viewing 
is the contribution these studies make to our understanding of the 
learning and cognitive/affective processing of aggression in children 
and youth.
    Dr. Murray is professor of developmental psychology in the School 
of Family Studies and Human Services at Kansas State University and 
director of the Media and Mind Program at the Mind Science Foundation 
in San Antonio. He is also a trustee of The Menninger Foundation.

    Senator Brownback. Thank you very much, Dr. Murray. Are 
there other researchers that are doing similar brain-mapping 
work?
    Dr. Murray. Well, Dr. Anderson has been doing some work 
with adults on understanding visual materials, television 
material, not necessarily with violence, but the same 
principles apply. And a group at the University of Indiana 
Medical School has been looking at behavior-disordered children 
and their response to clips from video violence games.
    My colleague, Dr. Rich, and I are hoping to do similar 
extended studies at Harvard Medical School, and particularly we 
have had discussions with the chief of neuro-radiology at 
Boston Children's Hospital, which is ideally set to work with 
young children and do the kinds of brain mapping that would 
allow us to have much greater insights into this.
    Senator Brownback. Is anybody doing brain-mapping work on 
the impact of sexual material? We heard from the prior panel 
that there is speculation that you are triggering different 
parts of the brain with violence versus sexual material, and 
that the mixing of the two of them may get a double buzz going.
    Dr. Murray. This is my speculation, that you combine this 
kind of violence with the kind of sexual material that you find 
in the genre known as ``teenage slasher films''--``Friday the 
13th'' or a whole bunch--Jason and Elm Street or what-have-
you--where you suddenly have a combination of not only 
violence, but also sexual arousal and eroticism in the violence 
combined with the violence, you have created probably the most 
potent, dangerous, flammable substance that you could possible 
put together. No one has done that, and there are reasons--
well, this is all very new, so people have not had a chance to 
kind of----
    Senator Brownback. Explain your statement, ``You have 
created the most potent, flammable''----
    Dr. Murray. Because you have got arousal from several 
different sources, and you have linked the fear associated with 
violence with the pleasure associated with sexual arousal, and 
you have got both fear and pleasure syndromes running 
together--I mean, this is all speculation. We would need to 
look at this. And I think what you have got is an indelible 
memory. And that is why Dr. Kunkel's colleague, Edward 
Donnerstein, who has looked at the effects of sexualized 
violence on college students, university students, finds that--
not in an MRI--but finds that males who have watched these 
sexualized violent erotica are much more likely, in some other 
settings, to hold denigrating views of women, are much more 
likely to be less responsive to women who have claimed that 
they have been raped. It is a very complicated set of studies, 
but the main message is that sexualized violence is high-
potency, high-octane violence that has some lingering effects 
on the ways in which males and females will interact.
    Senator Brownback. I presume both of you would support that 
we need to get a lot more information from a lot more data-
points in this brain-mapping field, but both of you would view 
it as quite promising for us to learn what this experiment in 
entertainment with sex and violence is doing to us as a 
society?
    Dr. Murray. I think it is crucial. I am sorry, I jumped 
ahead. But I do think it is extremely important to understand 
how children, and adults, for that matter, process the violence 
that they see, the sexuality that they see, and how those get 
combined. And the only way we are going to do that is by having 
a number of researchers in different areas doing similar kinds 
of studies with equipment and bringing together their findings. 
We are just at the beginning of this sort of research.
    Senator Brownback. Dr. Anderson?
    Dr. Anderson. You have heard just about all the research 
that has been done so far, in terms of brain mapping and media. 
I was not aware of Dr. Matthew's work at Indiana University. 
But there is a lot of work that is going on in brain mapping on 
a whole variety of issues, including mental illness and studies 
of basic cognitive processes, memory, and so on. All of this 
work is an interdisciplinary work that requires teams of people 
from a variety of backgrounds. You have to have a neuro-
anatomist who can assign areas of activation to the brain. You 
have to have a physicist who can calibrate the MRI machine. You 
have to have computer scientists who generate the graphics. And 
you have to have a mathematician to do the analyses. It is 
quite an operation. It is very expensive. And up to this point 
in time, there has simply been no focus on media as being an 
issue, simply because the people who do media research 
frequently do not have a background in brain studies, the 
people who do brain studies have no background or necessarily 
interest in media, and so on. But when the funding is available 
and the time is right, and I would say the time is right now, 
then, in fact, I think that this methodology can just provide 
just an explosion of knowledge in--certainly in the areas that 
we have been discussing, but many other areas related to media, 
as well.
    Senator Brownback. What will it provide? You say an 
``explosion of knowledge,'' Dr. Anderson. What will this 
information provide if we put forward a funding stream or 
require some form of review of this nature before the release 
of a product? What sort of information would we find out?
    Dr. Anderson. Well, I will give you an example from my 
research. One of the things that we found was that in order to 
put together the way an adult puts together an understanding of 
an edited sequence of shots, requires large areas in the 
prefrontal lobe of the brain on the right side of the brain. 
These are actually analogous to the language areas that are on 
the left side of the brain. But these appear to be visual 
language areas. They are areas that essentially are 
comprehending the syntax, the flow of meaning, of visual 
images. Well, one of the things that we know is that this area 
of the brain is very immature in young children. It is the 
slowest developing area of the brain. There are a few others 
that I notice from Dr. Murray's charts that are also very slow 
developing areas of the brain. Well, that information, and 
especially if we can verify it in studies of children, that 
information can tell us of some of the limitations that 
children would have in processing and understanding media and 
being able to put them in some kind of context.
    Prior to this, prior to these studies, we did not have a 
clue, other than the most basic areas--obviously, when you are 
listening to television, the auditory areas area active; you 
are watching the television, the visual areas are active; that 
is a given--but other than that, we did not have any idea what 
parts of the brain were being used to process and deal with 
television. So this is very early days, but I think we have 
learned so much just from these two preliminary studies, that 
it is just, I think, huge. We will be able to put together a 
very detailed story about how the brain--we use our brains to 
process media. When we know that, then we can start to put 
together a detailed story about what the impact of media will 
be on the brain, and I think that can be both for good and bad, 
obviously.
    I guess I represent the light side, and you represent the 
dark side.
    Senator Brownback. So as we put that information together, 
are we going to be able to know, then, the impact of the 
cultural environment, or at least the impact of the consumption 
of certain types of cultural materials on our children? Are we 
going to be able to come to any conclusions about what sort of 
impact this violent entertainment has on a percentage, a fairly 
significant percentage, of children. If it has a long-term 
impact that is negative?
    Dr. Murray. We can certainly begin to see where----
    Senator Brownback. Or positive, on the side of Dr. 
Anderson?
    Dr. Anderson. I guess my answer would not quite deal with 
the cultural question. But here is an aspect that is 
interesting. There is quite a bit of research to indicate that 
children are performing better on IQ tests compared to children 
from previous generations. So that when you look at the norms 
from the 1930s, for example, and you test today's children with 
the same tests that were given back then, today's children do 
far better on those tests. But they do not do better on all 
items. And, in fact, what they do better on is a set of items 
that have to do with the ability to conceive of things in 
three-dimensional space.
    So what could possibly be accounting for that? One of our 
colleagues in this research, Patricia Greenfield, has shown 
that children with interactive media, who are working on games 
like Tetris, and so on, that involved spatial concepts, show 
improvements in this ability. Since this increase has been 
going on for a long time, for generations now, other people 
have speculated that movies and television have contributed to 
this.
    Well, in our work, we find that in order to put together 
this coherent sequence of actions, an area of the brain that we 
know is involved in spacial intelligence is very much 
activated. And, in fact, when you think about it, as you follow 
action through space on television, you have to form a model of 
the environment that characters are moving through, and you 
have to do it very quickly, and, of course, you are getting--as 
you watch lots of movies and television, you are getting 
practice doing this hour after hour, day after day, week after 
week. This may have had a long-term impact, in this case for 
the better, on our ability to conceive things in three-
dimensional space. But we would not have even known it, we 
would not have the mechanism, without the kind of research that 
we are doing showing that when you are watching these films you 
are actually stimulating and activating that part of the brain.
    Senator Brownback. Has the entertainment industry contacted 
either of you about this brain-mapping work, saying, ``Well, 
this is very interesting about what the product that we are 
putting out is doing. We want to work with you in a positive 
way and make sure we are feeding children good food and not bad 
food''? Or broccoli and less cotton candy?
    Dr. Murray. Well, I have worked--I was appointed to an 
advisory board for CBS, the Children's Television Advisory 
Board, in 1996-97, when we were just starting this research. 
And it was to help them select some programming that would be 
educational and entertaining, to respond to the Federal 
Communications regulations on EI programming. And we had a very 
lively discussion over about a year period. We would meet every 
six months. For maybe two years, actually. And then it all fell 
apart, and the committee was disbanded. And the committee 
consisted of Dorothy Singer, from Yale, and myself, and Aletha 
Houston, from University of Texas, and a few others.
    So the possibility is there. The system fell apart because 
they decided that they really did not like our advice on some 
of the programs.
    Senator Brownback. But have they contacted you about brain-
mapping work?
    Dr. Murray. Not about the brain mapping, but--because we 
talked about it at the time. I was just in the early stages of 
doing this brain mapping, and they were--I guess my judgment 
about the response was cautious concern. They were not exactly 
pleased with the research underway, because it had the 
potential for being a worrisome addition, another list of the 
worries. But they were interested in the fact that you could 
actually do this and that maybe it could help, as Dr. Anderson 
suggests, in other ways of providing educational programming 
that is far more beneficial or targeted in a better way to 
enhancing children's development.
    Dr. Anderson. I have actually worked quite a lot with 
networks and production houses to make educational television 
for young children. The research that we have drawn on so far 
has been behavioral research, research on issues of 
comprehension. What can a 3-year-old understand? What can a 4-
year-old understand? What can a 5-year-old understand? Issues 
of attention, what is attention-worthy for a young child, what 
causes them to lose their attention. And curriculum, what are 
the things that a child needs to know? What needs can we serve 
for that. I have got to say, at least at the preschool level, 
the cable television networks, primarily Nickelodeon and 
Disney, have really taken the position that it is important to 
minimize the violence in their offerings, and, especially for 
preschoolers, have taken the position that the programs should 
be designed to be beneficial, they should have a curriculum. 
Some, of course, are better than others.
    But as soon as the brain-mapping research reaches a 
critical mass of knowledge where we can be very sure that we 
know things that are going on, I am quite certain that they 
will be very interested in taking the positive aspects of it 
and applying it.
    Senator Brownback. Gentlemen, this is very enlightening. I 
wish we had more people here. Because we have held hearings on 
this in the past based almost exclusively on behavioral studies 
and anecdotal information. All important, but that does not 
cover hard, physical science. We have not had access to that in 
the past, and I am excited to see that sort of body of 
knowledge developing. It will be great to be able to build off 
of that, and to take that to the country and to the industry 
once we further develop the information and get it in a shape 
where we are confident and comfortable with what we have. The 
early information you present here seems to me to track very 
closely with all the behavioral studies that we have, and 
explains a lot of the behavioral studies, of which you have 
documented 1,945. So it seems to me that we have been at the 
point of, ``Well, I was coughing every morning from smoking, 
but I don't know why,'' and now we are getting to the point of, 
``well, here is why.'' This is a very important step for us to 
cross and very important for us to understand as a country. For 
this is a vast experiment we are doing of raising our children 
on media, much of which can very good and is very good and 
uplifting, but some of which can be very detrimental, and 
behavioral studies are saying is very detrimental. Now we can 
see the hard data of how that actually works.
    I applaud your work. We are going to be working here in 
Congress to attempt to get more funding so that we can develop 
this very important area of studies further, and shifting 
funding from other places to try to be able to develop this 
work much more aggressively. We hope you and your colleagues 
will engage this effort, so that we really can understand this 
in a hard science setting.
    Thank you for joining us. The hearing is adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]



                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    I want to thank Senator Brownback for calling this hearing. Media 
violence is an important issue that this Committee has studied on 
numerous occasions. And while I am interested to hear the testimony 
today on brain mapping research, I believe that this Committee has 
heard ample evidence about the affect of violent programming on 
children to spur Congress to take action.
    For decades, renowned professors, scientists and public health 
professionals have conducted extensive research to study the effect of 
media violence on children. The evidence has consistently demonstrated 
that exposure to media violence is related to aggressive and violent 
behavior. Watching violent television shows or movies and playing 
violent video games contribute to making a child more aggressive, more 
desensitized to violence, and more prone to using violence to resolve 
problems.
    The amount and magnitude of violence in video programming and video 
games continues to increase. Parents should be empowered with tools 
that enable them to limit the amount of violence their children see. As 
legislators, we have an obligation to help parents in this endeavor. We 
need to take action to curb violent programming consistent with our 
values and the Constitution.
    In each of the past five Congresses, I have introduced legislation 
designed to create a ``safe harbor'' time period during which parents 
can be assured that children will not be exposed to violence. The 
support for my legislation has been widespread and it has been reported 
out of this Committee multiple times--most recently by a vote of 17 to 
1. Once again, I have introduced the ``Children's Protection from 
Violent Programming Act'' in this Congress.
    Today, we will be hearing additional testimony supporting the 
prevailing wisdom that violence begets violence. I am ready to take 
action and hope that the Committee will once again act favorably on my 
legislation.

                                  <all>
</pre></body></html>
